U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




         NATIONAL OCEANIC AND
   ATMOSPHERIC ADMINISTRATION

   NMFS Observer Programs Should Improve
     Data Quality, Performance Monitoring,
                       And Outreach Efforts


           Final Audit Report No. IPE-15721/March 2004




                            PUBLIC
                            RELEASE



          Office of Inspections and Program Evaluations

                                            TABLE OF CONTENTS



EXECUTIVE SUMMARY ..................................................................................................i


BACKGROUND ................................................................................................................ 1


OBJECTIVES, SCOPE, AND METHODOLOGY ............................................................ 6


OBSERVATIONS AND CONCLUSIONS ....................................................................... 7


I.	       “Best” Practices That Result in Improved Data Quality Should Be Shared ........... 7

          A.	    Some techniques improve data quality ....................................................... 7

          B.	    Some processes also assist with detecting fraud ....................................... 10


II.	      Observer Vessel Selection Processes May Result in Data Bias ........................... 12

          A.	   Vessel selection procedures and practices need closer management 

                attention..................................................................................................... 12

          B.	   A vessel selection process is needed to randomly place North Pacific 

                Groundfish observers on the “30 percent” fleet........................................ 16


III.	     A Qualified Observer Corps Enhances Program Efficiency and Data Quality .... 18

          A.	   Reviewing recruitment practices is a step in the right direction............... 20

          B.	   Enhanced communication, training, and career opportunities may 

                help retain observers ................................................................................. 20


IV.	      Improved Performance Measuring and Monitoring Ensures Accountability....... 25

          A.	   Better performance monitoring and more program manager 

                accountability are needed.......................................................................... 25

          B.	   Assessing observer provider performance can be accomplished 

                through improved contracting practices.................................................... 29

          C.	   An observer provider monitoring and reporting process is needed in 

                the North Pacific Groundfish program ..................................................... 32


V.	       Increasing Outreach Efforts May Enhance Industry Cooperation........................ 34

          A. 	   An observer program outreach strategy is needed .................................... 34

          B.	    Improving industry relations needs to be a priority.................................. 37

          C.	    Offering incentives could foster better industry relations and 

                 improve cooperation ................................................................................. 39


RECOMMENDATIONS.................................................................................................. 41


APPENDIXES .................................................................................................................. 43

     A.	  Evaluation of Observer Program Operations Manuals ............................. 43 

     B.	  Acronyms .................................................................................................. 44

     C. 	 Agency Response to the OIG Draft Report............................................... 45

U.S. Department of Commerce                                           Final Report IPE-15721

Office of Inspector General                                                     March 2004




                               EXECUTIVE SUMMARY


The Department of Commerce’s National Oceanic and Atmospheric Administration
(NOAA), through its National Marine Fisheries Service (NMFS), is responsible for
managing, conserving, and rehabilitating marine resources within the United States.
NMFS is charged with rebuilding and maintaining sustainable fisheries, promoting
recovery of protected species, and protecting the health of coastal marine habitats.

Worldwide, observers are deployed on commercial fishing vessels to collect data and
monitor fishing activities. In the United States, the use of observers can be traced back to
the 1970s, when NMFS placed observers on foreign fishing vessels. Following the
passage of the Magnuson-Stevens Fishery Conservation and Management Act in 1976,
NMFS began deploying observers on domestic fishing vessels to record catch, bycatch,
marine mammal interactions, and a variety of statistical data to assess marine resource
sustainability. Such data is used by scientists and policymakers to make fishery
management decisions for purposes of maintaining the nation’s marine resources.
Observers are often the only independent data source for some types of at-sea
information, such as bycatch composition and mortality, and marine mammal, sea turtle
and sea bird interactions.

Over the years, observer programs have been developed by NMFS regional staff to meet
local scientific and management information needs. Since observer programs were
developed, implemented, and operated regionally, limited coordination and
communication existed between the programs. In 1999, NMFS established the National
Observer Program Office (NOP), within its headquarters Science and Technology
program office, to support the regional observer programs and increase their usefulness to
the overall goals of NMFS.

NMFS does not employ observers, but generally contracts with private sector companies,
or, in some cases, educational institutions. Contracts between NMFS and observer
provider companies/institutions are in place for all observer programs except the North
Pacific Groundfish program, where industry contracts directly with the company. The
primary responsibilities of the companies/institutions are to recruit and hire observers and
arrange logistics for trips. NMFS is responsible for training, certifying, and in most
instances, debriefing observers returning from deployment. Observers are trained by
NMFS to collect catch data including species composition, weights and disposition of
fish caught, and seabird sightings and marine mammal and sea turtle interactions. The
resulting data provides scientific and technical information to NMFS and other agencies
of the government, industry, and the public and is used to assist with the conservation,
management, and utilization of living marine resources. Currently, more than 500
observers are deployed in 14 observer programs, most of which are administered through
NMFS’s six regional Fisheries Science Centers (FSCs).




                                             i
U.S. Department of Commerce                                                  Final Report IPE-15721

Office of Inspector General                                                            March 2004


The Office of Inspector General’s Office of Inspections and Program Evaluations
reviewed seven regional NMFS observer programs to determine whether they are
meeting data collection needs, how
NMFS ensures that observer data is of               NMFS’ 14 Regional Observer Programs
high quality,
                                                      Alaska Regional Office, Juneau, AK
and how well the program’s missions      1.	 Alaska Marine Mammal
and objectives are communicated. The                        Alaska FSC, Seattle, WA
box on the right identifies the fourteen 2.	 North Pacific and Bering Sea Groundfish Trawl and
observer programs by the office               Fixed Gear Fishery
                                                          Northwest FSC, Seattle, WA
responsible for running the program      3.	 At-sea Pacific Hake
and office location. The seven           4.	 West Coast Groundfish
programs reviewed by the OIG are in                     Pacific Islands FSC, Honolulu, HI
bold italics. Our evaluation was         5.	 Hawaii Swordfish-Tuna Longline

conducted at four Fisheries Science                     Southwest FSC, Long Beach, CA
                                         6.	 California/Oregon Drift Gillnet
Centers (Alaska, Northwest, Northeast 7.	 West Coast Pelagic Longline
and Southeast). During the course of                   Southeast FSC lab, Galveston, TX
                                         8.	 Southeastern Shrimp Otter Trawl Fishery
this review, we contacted NMFS
officials in the regions and at                            Southeast FSC, Miami, FL
                                         9.	 Southeastern FSC Pelagic Longline
headquarters, and interviewed                         Southeast FSC lab, Panama City, FL
representatives from the fishing         10.	 Southeastern FSC Shark Drift Gillnet
industry, observer provider                             Northeast FSC, Woods Hole, MA
contractors, and individual observers.   11.	 New England Groundfish
                                         12.	 New England and Mid-Atlantic Gillnet Fisheries
We also attended the International       13.	 Atlantic Sea Scallop Dredge Fishery/Georges Bank
Observer Fisheries conference,                Highly Migratory Species Division, Silver Spring, MD
providing us with an opportunity to      14.	 Atlantic and Gulf of Mexico Shark Bottom Longline
                                         Source : NMFS
speak to managers of international 

observer programs. Our findings are summarized below.


Sharing “best” data quality assurance practices across programs should be 

explored. Observer programs are tasked with collecting data, reporting it to their 

respective FSC, and ensuring that the data is of high quality. A number of “best” 

practices—activities that may lend themselves to being replicated across the programs—

were found. For example, some programs, using at-sea communications systems and 

portable computers, have developed the means to capture and communicate observer data 

more quickly, efficiently, and accurately. Some have also strengthened their observer 

debriefing and data quality assurance processes to not only yield high-quality data but 

also have the capability for preventing or detecting fraudulent data submissions. Many of 

the practices developed by FSCs may have applications for other observer programs. 

Thus, to improve data quality and program efficiencies, NMFS may want to explore the 

feasibility of adopting many of these “best” practices nationwide (see page 7).


NMFS needs to ensure that the vessel selection processes used to place observers on 

ships result in data that is representative of the fishing effort. Each observer progr am 

has a process for placing observers on vessels; each process is designed to ensure that a 

representative sample of fishing activity for a particular fishery is obtained. Of the seven 

observer programs we reviewed, each one’s vessel selection process contained problems 

that could potentially introduce bias. For example, in two of the Northeast Science 



                                                 ii
U.S. Department of Commerce                                             Final Report IPE-15721

Office of Inspector General                                                       March 2004


Center observer programs, observers are responsible for “finding” and informing vessel
captains that they are required to take an observer. Thus, rather than obtaining data from
a random sample of vessels, some observers repeatedly board the same cooperative
vessels that are willing to take them, even if they are not at the top of the randomized list
provided by the Center. Most programs lacked internal controls to ensure their sampling
design was implemented correctly. We found that NMFS needs to exercise better
oversight to ensure that vessel selection processes are designed and/or implemented in a
manner that avoids sample and data bias (see page 12).

NMFS needs to take actions to help maintain an experienced corps of observers.
Countries that have observer programs have reportedly recognized that retaining a
qualified observer corps is necessary for the collection of quality data. But to become
“qualified,” observers need sufficient time to learn their duties, develop good judgment in
carrying out those duties, and adapt to the rigors of a hazardous working environment.
High turnover rates in NMFS observer programs have reportedly hampered development
of an experienced observer corps. In addition, high turnover increases training costs
because of the continuous need to train new observers and adversely affects data quality
and reliability. NMFS has begun to review observer program recruitment practices, a
step we believe is in the right direction. However, other steps could be taken to improve
retention rates. For example, observers stated that it would be beneficial to both them
and the program if they better understand how their data collection efforts fit into the
NMFS mission. Consequently, follow- up training specifically about data usage may
improve retention rates and foster better data collection skills. In addition, observers also
identified increased career opportunities as a way to improve retention rates and build a
highly qualified observer corps (see page 18).

To improve regional observer program accountability, NMFS should measure and
monitor performance across all programs . The observer programs we reviewed
lacked comprehensive, consistent performance measures. In addition to the lack of
performance measures, the current organizational structure—programs run independently
in the regions—does not provide a clear reporting relationship to headquarters. Although
creation of the National Observer Program and a National Observer Program Advisory
Team improved communications between headquarters and the regions, national
priorities and performance measures should be established to ensure regional program
accountability. NMFS needs to develop a limited number of program- wide performance
measures as well as a mechanism to report priorities and monitor observer programs.
Such performance measures are not intended to be official Government Performance and
Results Act measures. Rather the measures are to be used for monitoring program
success, ensuring program accountability, and reporting observer program results to
NMFS stakeholders (see page 25).

During our review, we also found that the majority of the statements of work used in the
contracts to hire observer providers are not “performance-based” and do not contain
criteria that can be used to assess performance. Rather than structure a contract on how
to provide a service, “performance-based” acquisitions focus on the purpose of the work
to be performed and allow for an objective assessment of contractor performance.



                                              iii
U.S. Department of Commerce                                          Final Report IPE-15721

Office of Inspector General                                                    March 2004


Although two FSCs (Southeast and Northeast) have taken steps to incorporate some
performance-based elements, such as performance measures, incentives, and
disincentives, in their statements of work, more needs to be done to ensure the use of
performance-based work statements across all programs (see page 29).

NMFS should develop a national outreach strategy to better communicate the
mission and goals of the observer program to the fishing industry. NMFS has faced
increasing criticism from Congress, agency advisory groups, environmental groups, and
the fishing industry about its various fisheries management activities. Industry
representatives and agency and observer program personnel we interviewed, as well as
documentation from advisory groups, attribute some of these problems to NMFS’ lack of
communication—information sharing and direct contact—with its public constituents and
stakeholders. The unwillingness of some in the industry to cooperate with the observer
program may be caused by the lack of information about the program; they therefore may
not fully understand the benefits of collecting at-sea fishing data. Consequently, the lack
of industry cooperation can adversely affect the collection of the data and its resulting
quality. A number of NMFS staff, both data users and observer program staff, admitted
that more outreach to industry needs to be done to help improve industry participation in
and cooperation with the program. Those we spoke with, however, offered not only
criticisms but also suggestions for solutions. From building a framework for a cohesive,
national information, communication, and education program to meeting individually
with influential fishing industry representatives, NMFS needs to develop a consistent and
unified observer program outreach strategy. But as important as it is for NMFS to
develop an outreach strategy that incorporates personal contact and provides plain
English and bilingual publications, it is equally important to provide a forum that allows
NMFS’ stakeholders to voice their opinions and concerns about the program and know
that they are heard. (see page 35).

On page 41, we offer 10 recommendations to address our concerns.



In its March 5, 2004, response to our draft report, NOAA fully concurred with nine
recommendations and the “intent” of one recommendation. NOAA also asked that we
address the methodology used to review and assess the National Observer Program
office. The focus of this review was on observer data collection needs and the methods
used for ensuring data quality, activities carried out by the regional observer programs,
not by a headquarters office responsible for coordinating observer programs.
Consequently, the role of the National Observer Program office is discussed as it pertains
to such coordination and the need for national program direction and leadership.

NOAA’s response also expressed a concern that the recommendations may not be
applicable across all observer programs. The intent of this evaluation was to take a
sample of programs and identify cross-cutting issues. While there may be regional or
program differences among the sampled programs, as well as among the programs that
were not included in our review, the issues and recommendations discussed in this report,



                                            iv
U.S. Department of Commerce                                           Final Report IPE-15721

Office of Inspector General                                                     March 2004


as outlined above, may be generally applicable to all programs. For example, we found
problems with the methodology, or in some cases the implementation, of the vessel
selection procedures for most of the programs we examined. Our recommendation to
develop and implement statistically valid, unbiased vessel selection procedures, and
monitor their implementation, is an example of a standard quality assurance procedure
that should be in place for all observer programs.

In addition, NOAA’s response suggested that we emphasize the crucial role that NOAA
Fisheries Office for Law Enforcement (OLE) plays by cross-referencing a
recommendation in our March 2003 report, NMFS Should Take a Number of Actions to
Strengthen Fisheries Enforcement (IPE-15154). That report recommended that OLE
work with observer program officials to develop a policy statement or directive
specifying observers’ role in monitoring and compliance, sharing observer information
with OLE, and the appropriate use of observer data by OLE agents. We did not discuss
the role of enforcement in the observer report because we addressed that subject in the
March 2003 report.

Finally, NOAA had a number of specific comments on several findings and
recommendations in the report, including some suggestions for wording changes and
points of clarification with respect to our interpretations and findings. We have made
changes to the final report in response to those comments on the draft report, wherever
appropriate. A discussion of NOAA’s response to each recommendation, including
actions it intends to take and anticipated timeframes, follows each relevant section in the
report.




                                             v
U.S. Department of Commerce                                                 Final Report IPE-15721

Office of Inspector General                                                           March 2004



                                       BACKGROUND

Scientists estimate that worldwide, during the 1980s and early 1990s, fishermen
discarded about 25 percent of their intake, an estimated 60 billion pounds of marine life
per year. Bycatch, the unintentional taking of non-targeted species, is composed of a
variety of marine life—fish, mammals, and birds. Such an abundance of bycatch
jeopardizes the sustainability of many species. 1 The Department of Commerce’s
National Oceanic and Atmospheric Administration (NOAA) is responsible for managing,
conserving, and rehabilitating the United States’ marine resources and habitats. NOAA’s
National Marine Fisheries Service (NMFS) is charged with rebuilding and maintaining
sustainable fisheries, promoting recovery of protected species, and protecting the health
of coastal marine ecosystems.

To assess marine resource sustainability, in relation to America’s fishing industry, NMFS
deplo ys observers on fishing vessels to record catch, bycatch, marine mammal, sea bird
and sea turtle interactions, and a variety of statistical data. The proceedings from the first
Canada/United States Observer Program Workshop, held in March 1998, state that

        Observer programs provide cost-efficient and reliable sources of
        information about catch, bycatch, and fishing operations and, ultimately, a
        better understanding of the marine ecosystem and the impact of fisheries
        on the ecosystem. Alternatives to at-sea observer programs (such as
        information collected at shoreside processing plants) provide only limited
        types of data. 2

Observers are the only independent data source for some types of at-sea information,
such as bycatch composition and mortality, and marine mammal, sea bird and sea turtle
interactions. Although vessel self-reporting is often utilized, only limited data collection
demands can reasonably be placed on the captain and crew. In addition, the reliability of
self-reported information is a concern for scientists and policy makers, who use the data
to make fishery management decisions for the purpose of maintaining the nation’s marine
resources.

Observer programs are used worldwide to collect data and monitor commercial fishing
activities. Early observer programs in the United States were on foreign fishing vessels
off of the northwest and Alaskan coasts and on American flagged tuna vessels operating
in the Eastern Tropical Pacific. The program expanded with the passage of the
Magnuson-Stevens Fishery Conservation and Management Act in 1976, when the
definition of federal waters was extended to 200 miles off of the United States coastline.
By the 1980s foreign fishing vessels were prohibited from fishing in federal waters, and

1
  Pew Oceans Commission. 2001. “Major Threats to Our Oceans.” In America’s Living Oceans: Charting a
Course for Sea Change. Arlington, VA: Pew Oceans Commission. (At
http://www.pewoceans.org/oceans/oceans_pollution.asp)
2
  McElderry, H. et al. editors, May 1999. “Proceedings of the First Biennial Canada/U.S. Observer
Program Workshop,” NOAA Technical Memorandum NMFS-AFSC-101.


                                                 1

  U.S. Department of Commerce                                                           Final Report IPE-15721

  Office of Inspector General                                                                     March 2004


  the observer program shifted to monitoring domestic fishing fleets. A total of three major
  pieces of legislation form the requisite authority for NMFS to place observers within the
  fishing industry:

      � The Marine Mammal Protection Act covers fishing in both state (coastline to 3
        miles) and federal (3 miles to 200 miles from shore) jurisdictions. Observers are
        placed on vessels in fisheries that have a frequent or occasional take of marine
        mammals.
      � The Magnuson-Stevens Fishery Conservation and Management Act only cove rs
        fisheries operating in federal waters. Observers are placed on vessels as required
        by a Fishery Management Council or Secretarial fishery management plan.
      � The Endangered Species Act covers fishing in both state and federal jurisdictions.
        Observers may be required to monitor fishing activities that might impact
        endangered species.

  Observer programs have been developed by NMFS regional staff to meet local scientific
  and management information needs. Most of the observer programs are administered
  through the six regional Fisheries Science Centers (FSCs). Currently, more than 500
  observers are deployed in 14 observer programs. Using data collected by the observers,
  FSCs conduct multidisciplinary research programs that provide scientific and technical
  information to NMFS regional offices and other agencies of the government, industry,
  and the public on the conservation, management, and utilization of living marine
  resources.

  In 1999, NMFS established the National Observer Program (NOP), within the Office of
  Science and Technology (see Figure 1). NOP has no direct line authority over the
  observer programs that are administered by the fishery science centers, regional offices,
  or headquarters.

          Figure 1: NMFS Organizational Chart


                                              Assistant Administrator
                                                   for Fisheries


                   Deputy Assistant                   Director                  Deputy Assistant
                   Administrator for       Scientific Programs & Chief          Administrator for
                 Regulatory Programs*           Science Advisor                   Operations


                                   Northeast FSC                Southeast FSC

                                   Northwest FSC                Southwest FSC

                                     Alaska FSC                Pacific Islands FSC

                                Science & Technology


                               National Observer Program




*NMFS six regional offices, responsible for managing the living marine resources and working with fishery
management councils, report to the Deputy Assistant Administrator for Regulatory Programs.
                                                           2
U.S. Department of Commerce                                            Final Report IPE-15721

Office of Inspector General                                                      March 2004




The mission of the NOP is to support observer programs and increase their usefulness to
the overall goals of NMFS. Since observer programs are developed, implemented, and
operated regionally, there was limited coordination and communication between the
programs until the NOP was established.

A 16-member advisory team to the NOP was also established at its inception; the
National Observer Program Advisory Team (NOPAT) has representatives from each
region and each NMFS headquarters office and works with NOP staff to identify issues
of national concern, recommend or establish priorities for national research and problem
solving, and support information collection and program implementation. Improvements
in data collection, observer training, and the integration of observer data with other
research are among the issues NOP works with on a national level.

Observers are trained by NMFS to collect catch data including species composition,
weights and disposition of fish caught, and seabird sightings and marine mammal, sea
bird and sea turtle interactions. Observers also collect biological data such as sexed fish
lengths, weights, and population age structures. The data they collect is often the most
current information available about the status of many fisheries.

Observers’ responsibilities include:                      Photo 1: Observer Recording Data
� providing data, both environmental and
   socioeconomic, for fisheries science and
   manage ment;
� providing a means to verify data collected from
   sources such as ships’ logbooks and landing
   reports;
� providing data on species-composition of catch and
   bycatch; vessel and gear characteristics; fishing
   locations; biological samples; and environmental
   parameters; and                                        Source: North Pacific Fisheries
� in some programs, between deployments, assisting        Observer Training Center
   in research projects, collecting biological samples
   for stock assessments and genetic studies, tagging animals, and assisting in research
   activities.

Of the 14 regional observer programs, the ones we specifically reviewed are shaded in
the following table.




                                             3

U.S. Department of Commerce                                               Final Report IPE-15721

Office of Inspector General                                                         March 2004


Table 1: NMFS Fishery Observer Programs
 NMFS Office/ Location                  Observer Program
 Alaska Regional Office, Juneau, AK     Alaska Marine Mammal
                                        North Pacific and Bering Sea Groundfish Trawl and
 Alaska FSC, Seattle, WA
                                        Fixed Gear Fishery
                                        At-sea Pacific Hake
 Northwest FSC, Seattle, WA
                                        West Coast Groundfish

 Pacific Islands FSC, Honolulu, HI      Hawaii Swordfish-Tuna Longline

                                        California/Oregon Drift Gillnet
 Southwest FSC, Long Beach, CA
                                        West Coast Pelagic Longline
 Southeast FSC lab, Galveston, TX       Southeastern Shrimp Otter Trawl Fishery
 Southeast FSC, Miami, FL               Southeastern FSC Pelagic Longline
 Southeast FSC lab, Panama City, FL     Southeastern FSC Shark Drift Gillnet
                                        New England Groundfish
 Northeast FSC, Woods Hole, MA          New England and Mid-Atlantic Gillnet Fisheries
                                        Atlantic Sea Scallop Dredge Fishery/Georges Bank
 Highly Migratory Species Division,
                                        Atlantic and Gulf of Mexico Shark Bottom Longline
 Silver Spring, MD


Three models are used to fund and administer observer programs:

1.	 Federally funded contract : NMFS, using federally appropriated funds, contracts with
    observer providers to recruit, deploy, and cover insurance and any other costs
    associated with the collection and delivery of observer data to NMFS. Most observer
    programs use this model.
2.	 Industry funded: Industry pays observer providers directly. There is no contractual
    obligation to NMFS from the industry or observer providers, other than NMFS
    granting permits to companies seeking to provide observer services. Typically, only
    larger scale fisheries in Alaskan waters (groundfish vessels over 60 feet) and At-sea
    Pacific Hake vessels off the west coast utilize this model.
3.	 Resource funded through a third party: NMFS contracts with an observer provider,
    however the funds to pay for observer days are collected from industry. This model
    differs from the previous “industry funded” model because vessels assigned an
    observer are allowed to increase the amount of catch permitted, to offset paying for
    the observer. In addition, a contract between NMFS and the observer provider is in
    place. Only the Atlantic Closed Area Sea Scallop Dredge observer program uses this
    model.

In fiscal year 2002, total NMFS funding for observer programs was originally projected
to be $17,990,000, not including $13,690,000 provided by the resource and industry
funded programs. Due to funds carried over from fiscal year 2001, actual NMFS funding
for fiscal year 2002 was $21,024,000. NMFS funding for fiscal year 2003 was


                                            4

U.S. Department of Commerce                                         Final Report IPE-15721

Office of Inspector General                                                   March 2004


approximately $21,848,000. The fishing industry contribution was approximately
$14,669,000, taking into account funding from not only the North Pacific fishing vessels,
but also the Pacific At-Sea Hake and Northeast Closed Area Scallop vessels.




                                            5

U.S. Department of Commerce                                        Final Report IPE-15721

Office of Inspector General                                                  March 2004




                  OBJECTIVES, SCOPE, AND METHODOLOGY

Our review sought to determine (1) if the observer program is meeting NMFS data
collection needs, (2) how NMFS helps ensure the quality of observer data, and (3) how
well data is shared. We performed our fieldwork from January 8, 2003, through July 18,
2003. We discussed our findings with the Director of the National Observer Program and
the National Observer Program Advisory Team. We used the following methodology to
perform our review:

•	 Interviews. We spoke with staff from both the national and regional observer
   programs, science centers, NMFS regional offices, NMFS’s Office for Law
   Enforcement, three Administrative Service Centers, and the National Sea Grant
   Program as well as U.S. Fish and Wildlife Service and NMFS headquarters officials.
   We also interviewed in person or by telephone more than 20 members of the fishing
   industry and over 25 observers.

•	 On-site visits. We visited four Fisheries Science Centers in the Alaska, Northwest,
   Northeast, and Southeast regions and spoke with staff, data users, contractors, and
   observers. We interviewed contractors and observers at the University of Florida
   Shark Bottom Longline program; industry personnel at the Southeast Regional
   Office, Madeira Beach, Florida; observer and industry personnel in the Virginia
   Beach, Virginia, area; and staff of the Gulf Fishery Management Council.

•	 Special meetings. We attended meetings and conferences of the following groups:
   November 18-21, 2002, International Fisheries Observers; February 24-28, 2003,
   National Observer Program Office Advisory Team, and sat in on observer statement-
   of-work training; January 23-24, 2003, North Pacific Observer Advisory Committee;
   January 2003, North Pacific Fishery Management Council, and also attended
   Scientific and Statistical and Advisory Panel meetings held concurrently with the
   council meeting.

•	 Review of documents and relevant federal guidance and legislation. We reviewed
   observer program and training manuals, contracts, statements of work, federal
   acquisition regulations, guides from the Office of Federal Procurement Policy,
   standards for internal control from the General Accounting Office, training manuals
   for Contracting Officer Technical Representatives, information request responses
   from observer program managers, NOAA/NMFS budget documents, meeting minutes
   or presentations for the three biannual international fishery observer conferences,
   prior observer program studies and reports, documents from the United Nations Food
   and Agriculture Organization, fishery management plan observer requirements,
   observer regulations, and pertinent legislation such as the Magnuson-Stevens Fishery
   Conservation and Management Act, Marine Mammal Protection Act, and the Data
   Quality Act.




                                           6

U.S. Department of Commerce                                                     Final Report IPE-15721

Office of Inspector General                                                               March 2004




                           OBSERVATIONS AND CONCLUSIONS

      I.	      “Best” Practices That Result in Improved Data Quality Should Be
               Shared

One of the primary users of observer data are fishery science center staff responsible for
providing scientific and technical support to NMFS Regional Offices and Fishery
Management Councils. 3 We interviewed 23 NMFS science center data users and found
that most are satisfied with the observer data collected on their behalf (see Table 2
below).
Table 2: Results of Data Users Survey
      �     100 percent consider observer collected information to be quality data
      �     100 percent believe that the observer program collects the right data
      �     75 percent believe that observer program data collection priorities were balanced
      �     70 percent receive sufficient observer data

Collecting marine fisheries data during fishing activity requires speed and accuracy.
Data collected by observers on target species, bycatch, and discards, and on marine
mammal, sea turtle and sea bird interactions with the fishing industry, is vital to the
mission of NMFS. Although most users were satisfied with the data they received, some
felt that more observer coverage was needed and that observer program resources were
not properly allocated—that is, the data collected was not balanced between the needs of
those who use it for stock assessment and those who use it for resources protection.
During the course of our review, we found a variety of procedures, materials, or devices
that individual Fisheries Science Centers had developed to help improve the quality of
data collected. Many of these improvements have benefited the centers where they were
developed and may be practices that the other centers could adopt.

A.	         Some techniques improve data quality

 Historically, observers have used paper logbooks to record their samplings of bycatch
and discards and to note marine mammal, sea turtle and sea bird sightings. A number of
observer programs are now utilizing communications and computer technologies to more
accurately and efficiently collect and transmit observer data. In addition, after the data is
collected, many programs have implemented processes that review the data for possible
errors and anomalies. During the course of our review, we found several examples of
individual observer programs with operating techniques or electronic devices that help
improve data quality.



3
 Such support includes management and conservation reports on status of stocks and of fisheries,
environmental assessment and environmental impact statements for management plans and international
negotiations, or research to answer specific management needs in habitat conservation, endangered and
protected species, aquaculture, and utilization of harvested fish.


                                                   7

U.S. Department of Commerce                                                      Final Report IPE-15721

Office of Inspector General                                                                March 2004


• Electronic communications systems expedite data transmittal and reduce errors
Three observer programs are using some type of electronic system to transfer data
quickly and efficiently. The Alaska FSC’s North Pacific Groundfish Observer Program
uses a reporting system that allows observers to enter catch data (weight of fish caught,
species composition, target and incidental catch for each set or haul) while at sea.
Observers in the West Coast Groundfish program are provided laptop computers to
record and transmit data once they return to shore, and the Northeast FSC is presently
field-testing a heavy-duty, portable notebook-sized computer called the “Walkabout”
(shown in Figure 2). The Walkabout will allow
observers to move about the deck, relatively           Figure 2: Handheld “Walkabout”
unencumbered, while entering data. These
systems rapidly transmit data, eliminate the need
for retyping data, and can prevent incorrect
information from being entered into certain fields
(for example, many data fields have drop-down
lists, allowing the observer to select from a choice
of possible entries). For the real-time Alaska
system, questions can even be communicated
between the FSC and the observer at sea for
instant clarification and resolution.
                                                              Source: Northeast Fisheries Science Center
• Computerized quality control program flags anomalies
The Northeast FSC developed a quality control program for observer data by using
computer software to look for possible errors after data has been entered into the
database. Once anomalies are flagged, observers are contacted to resolve inconsistencies.

• Timely debriefings and observer evaluations correct problems early
The purpose of the observer debriefing, considered one of the most critical phases
relative to data quality control, is to ensure that the report is in the proper format,
accurate, neat, concise, and complete. 4 Most programs conduct one-on-one debriefings
with the observer (in person or by telephone) after a set period of time and/or number of
trips to review and clarify data collection results. However many observers expressed
concern that they go on multiple trips before being debriefed or, in the case of the
Northeast program, before the editors review their data. As a result, if they are doing
something incorrectly, they are not aware of this until after several trips. The Southeast
Pelagic Longline program debriefs observers via telephone, within two days of the trip.
The Northwest FSC evaluates observers in conjunction with their in-person debriefing.
Through the evaluation, the debriefer gathers information to determine if the observer is
experiencing any problems during his/her trips at sea and to identify problem observers
or those who need more training. Observer program officials believe the evaluations will
also help define areas for greater emphasis in future training sessions. Timely feedback,
especially fo r new observers, is essential to maintain data quality.




4
    van Helvoort, G., 1986 Observer program operations manual. FAO Fish.Tech.Pap., (275): 207 p.


                                                    8

U.S. Department of Commerce                                           Final Report IPE-15721

Office of Inspector General                                                     March 2004


• Post-trip electronic questionnaire facilitates the debriefing process
At the conclusion of their fishing trip, Alaska Groundfish observers complete an
electronic questionnaire requiring over 70 responses. Depending on the observer’s initial
answer to a question, the computerized questionnaire may ask additional questions in
greater detail and increases the likelihood that all relevant questions are asked. The
debriefer prints the questionnaire responses and is able to target areas to focus on during
the debriefing, thereby saving time and expediting the entire process from initial data
entry to final access by data users.

• At-sea training may help prepare observers for the rigors of the job
Observer training is primarily conducted in the classroom. Yet many observers claim
that they were unprepared for the rigors of the job and that seasickness, which can be so
debilitating that it impairs the observer from collecting any data, was an unforeseen
problem. The Northeast and Southeast programs have recently provided some limited
experience aboard commercial vessels during training to expose observers to the work
environment and familiarize them with ship layout and terminology. If feasible, other
programs may want to provide sea experience to better prepare observers for the rigors of
the job and help determine their seaworthiness. This would also help eliminate those not
suited for the position before they are assigned to go out to sea. Where vessel training
may be cost prohibitive or impractical, a “day in the life of an observer” video was
suggested.

• Northeast FSC’s observer bonus initiative is innovative but needs modification
The Northeast observer program has initiated a unique program to improve data quality
and retain observers by offering them a bonus. Many of the data users said that as a
result of the bonus program, the forms submitted by the observers are more complete (no
boxes were left blank). However, the lack of feedback, and perhaps how the criteria for
bonuses are being applied, is hindering the initiative. The bonus is tied to completeness
(of filling out the form), accuracy, sampling, and collecting protected species
information. Observers report that they do not receive feedback, and thus are unsure of
what they are doing wrong or what trip the bonus is associated with. In addition,
observers claim they are often questioned about relatively minor concerns, which they
believe have no impact on the quality of the data. For example, not rounding a decimal
figure to the hundredths and listing “coke can” instead of the general term “debris.”
Given the lack of feedback, the observers question how the criteria is being applied.
Other programs may want to consider a similar initiative, but they should establish useful
measures for the criteria and focus on providing observers with feedback as to what was
done correctly and what areas need improvement. The Northeast observer program
acknowledges problems with the bonus program and has stated that it is in the process of
modifying it.

• Better observer manuals enable the collection of high-quality data
Well-written and thorough observer manuals that provide guidance on observer duties
and priorities, health and safety, deployment, and ethics, and offer sample forms are
valuable not only as training resources but also as on-the-job operational reference tools,
enhancing the quality of data collected by observers. The North Pacific Groundfish


                                             9

U.S. Department of Commerce                                                 Final Report IPE-15721

Office of Inspector General                                                           March 2004


observer program manual received the most favorable comments from observers,
followed by the most recent version of the West Coast observer program manual.
Observers said the manuals are important reference guides and impact how well they are
able to do their jobs. We used two sources to assess the observer manuals—one for
evaluating operating manuals and the other on writing training manuals. 5 We reviewed
how well each manual introduces and outlines the information, the detail of the
information contained in the manual, the supporting documentation provided, and the
miscellaneous reference tools made available to the observer. We found that the Alaska
FSC’s North Pacific Groundfish and Northwest FSC’s West Coast Groundfish manuals
stood out, as observers had told us, as models for others to follow. These manuals are
rich in content, discussing data collection priorities, what to expect on board, the
observer’s role in regulatory compliance, acronyms, and a glossary of terms. The
manuals are also well organized with a table of contents and an index for easy
referencing. Appendix A summarizes the OIG analysis of the observer program manuals
conducted for this review.

B.      Some processes also assist with detecting fraud

NMFS relies on unbiased observer data to support its scientific and management data
collection requirements. During the course of this review, we inquired about the
prevalence of observer fraud (e.g., filling in the log sheets with “made up” data) and what
could be done to address it. According to the observers, vessel captains, observer
program officials, and law enforcement officials that we interviewed, observer fraud is
always a concern, however it is not considered to be a widespread problem. Observers
admitted to being aware of other observers cutting corners, such as not sampling the final
haul of a 60-day trip as the vessel is heading back to port, but felt that outright fraud was
rare. According to the NMFS Office for Law Enforcement officials, only a limited
number of cases have been filed claiming observer fraud. For example, in the Northeast,
only three cases of fraud have been reported in the past two years. However, the limited
number of reported cases does not mean that fraud or the potential for submitting
fraudulent data does not exist. Thus, using tools that prevent or assist with the detection
of fraud should be encouraged to better ensure the integrity of observer data.

Many of the aforementioned tools developed by the various observer programs can assist
with detecting fraudulent data. For example, altho ugh it is still undergoing field-testing,
the “Walkabout” notebook computer records vessel location via its Global Positioning
System uplink—requiring that data be entered while fishing activities are occurring. The
electronic, detailed questionnaire in Alaska, in conjunction with the face-to-face
debriefing, are effective means to detect problems with the data. While data anomalies
may not be fraud (just human error), the detailed questionnaire and face-to-face
debriefing may help deter observers from deliberately submitting fraudulent data. In
addition, to help detect potential fraud, observer program officials at the Northeast FSC
require the observer provider to conduct follow-up telephone surveys of vessel captains

5
  “Gatekeeper® Registration Authority Operations Manual Evaluation Criteria, Version 1” May 2003,
http://www.noie.gov.au/projects/confidence/Securing/RAOpsManEvCri.htm#Criteria; Davis, J. 1992, How
to Write a Training Manual. Brookfield, Vermont: Gower.


                                                10

U.S. Department of Commerce                                         Final Report IPE-15721

Office of Inspector General                                                   March 2004


who have taken an observer on a recent fishing trip. Observer program officials choose a
random sample of 10 percent of each observer’s vessels for follow-up to verify that the
observer took the trip and evaluate the observer’s performance.

Although we are not making a specific recommendation about any specific practice or
initiative, we encourage NMFS management to review these Observer Program practices
and share the information so that those that make sense for use elsewhere or across all
NMFS regions can be adopted. .



NOAA reported that in addition to the Northeast FSC, the Alaska, Southeast, and
Northwest FSCs have also implemented computerized quality control and assurance
procedures. Exploring whether these practices can be replicated (versus reinvented)
across other programs deserves further consideration.




                                           11

U.S. Department of Commerce                                             Final Report IPE-15721

Office of Inspector General                                                       March 2004


II.        Observer Vessel Selection Processes May Result in Data Bias

It is vital that the observer program collects data that is a representative sample of the
fishery under observation. Appropriately defining and including all vessels in the
population that is used to select vessels to carry an observer, and implementing a
statistically valid process for selecting vessels, is key in avoiding data bias. Each
observer program has its own pool of vessels and vessel selection methodology for
placing observers.

Data Quality Act’s implications for NMFS

Section 515 of the Treasury and General Government Appropriations Act for FY 2001
(P.L. 106-514), commonly referred to as the Data Quality Act, may have far-reaching
implications for NMFS’s observer programs. The act directs the Office of Management
and Budget (OMB) to issue government-wide guidelines that “provide policy and
procedural guidance to federal agencies for ensuring and maximizing the quality,
objectivity, utility, and integrity of information (including statistical information)
disseminated by federal agencies. 6

In February 2002 NMFS issued its Fisheries Science Center Accreditation Standards as
part of its Science Quality Assurance Program. The science center directors and the
director of the Office of Science and Technology evaluated existing science quality
measures at the FSCs for the purpose of developing a unified set of measures.
Developing standards and formalizing the accreditation process “will serve as a
framework through which science programs and their products will be evaluated to
ensure that the NMFS mission is accomplished based on the best available science.”

In September 2002 NOAA issued information quality guidelines for its operating units,
based on standards specified in the Data Quality Act, stipulating that data must be useful
to its users; safeguarded from improper access, modification or destruction; and accurate,
reliable, and unbiased.

A.         Vessel selection procedures and practices need closer management attention

Each of the observer programs we reviewed had shortcomings in its vessel selection
process, resulting in a less-than-representative sample of vessels or a possible lack of
observer objectivity that could adversely affect data quality.

The observer placement process introduces bias

The information collected by observers is supposed to be representative of the entire
fleet. We found that this is not occurring in most of the fisheries covered by the
Northeast FSC because observers are not randomly assigned to vessels. 7 Rather, observer
program officials inform the observer provider of the number of observer days needed

6
    http://www.noaanews.noaa.gov/stories/iq.htm.
7
    The one exception is the Closed Area Scallop fishery.


                                                      12

U.S. Department of Commerce                                            Final Report IPE-15721

Office of Inspector General                                                      March 2004


per month for a specific fishery. The observer provider assigns observers to ports where
vessels operating in that fishery are likely to be found. The observer is responsible for
finding and boarding a vessel in that fishery, which is not always possible.

Observers are often rebuffed when trying to board vessels, with captains claiming
ignorance about the program or questioning the legitimacy of the observer (e.g., “how do
I know you are really a NMFS observer?”). In addition, enforcing the requirement to
carry an observer has never been emphasized by the observer program and NMFS
enforcement, thus the industry knows minimal repercussions will occur for denying
observers access to their vessels or, as they often do, for leaving the port before the
observer arrives at the pre-determined departure time. Overrepresentation may also be
occurring, as observers repeatedly board those vessels willing to carry them in order to
obtain the required number of sea days.

Northeast observer program officials informed us that they are developing vessel
selection procedures. The program intends to ge nerate monthly lists of vessels using the
Northeast Regional Office permits database and prior year port and landing database. In
addition, steps have been taken to officially notify permit holders and vessel captains that
they are being assigned an observer. Observer program officials prepared two draft
letters articulating the legal requirement to take an observer. One letter is to be mailed to
the permit holder, and the other letter is for the observer to hand to the vessel captain.
During the course of this review, the letters were approved and signed by the Northeast
Regional Administrator.

Excluding vessels without safety decals results in selection bias

Selection bias exists whenever there is a systematic tendency to over represent or under
represent some part of the population. Federal regulations governing observer programs
prohibit observers from working on ships that have not passed a U.S. Coast Guard safety
examination or inspection. 8 The Coast Guard’s vessel safety program is a free, voluntary
dockside examination of U.S. commercial fishing vessels. The following is from the
observer safety notice to Pelagic Longline vessel owners/operators with swordfish limited
access permits:

          This is a reminder that on June 17, 1998, regulations under the Magnuson-
          Stevens Fishery Conservation and Management Act [MSFCMA] that
          address the health and safety of observers stationed aboard commercial
          fishing vessels became effective. Under these regulations, observers may
          not depart on a fishing trip aboard a vessel which does not comply with
          United States Coast Guard (USCG) safety requirements or display a
          current (issued within the previous two years) Commercial Fishing Vessel
          Safety Examination decal [50 CFR 600.746]. Vessels that do not meet
          these requirements are deemed unsafe for purposes of carrying an observer



8
    50 CFR §600.746(c)


                                             13

U.S. Department of Commerce                                             Final Report IPE-15721

Office of Inspector General                                                       March 2004


          and must correct noted deficiencies prior to departing port [50 CFR
          600.746 (c)(2) and (d)]. 9

While all programs require U.S. Coast Guard safety decals, the Southeast FSC Pelagic
Longline Observer Program automatically excludes vessels that have not met the U.S.
Coast Guard safety decal requirement from the population of vessels to be selected. The
Pelagic Longline observer program officials query the Coast Guard database and only
include vessels with a safety decal in the population of vessels to be selected to carry an
observer.

Pelagic Longline observer program officials’ rationale for omitting vessels without safety
decals is that the responsibility for ensuring industry compliance with the requirement
rests with NMFS Office of Law Enforcement (OLE), and not the observer program.
Enforcement officials, however, have stated that the lack of personnel prohibits them
from tracking down all active permits and determining whether a decal is present.
Rather, OLE will take action once a violation has occurred, that is an observer is assigned
to a vessel that does not have a safety decal. To prevent selection bias, all vessels should
have an equal chance of being selected to carry an observer and if an observer is assigned
to a vessel that does not have a valid Coast Guard safety decal, and if the vessel captain
refuses to have a safety inspection in a reasonable timeframe, then appropriate
enforcement action should be taken. Southeast FSC observer program officials have
agreed that all vessels should be included in the population and are changing their
methodology.

Outdated logbook databases result in a flawed selection process

In order to obtain information that represents the entire fleet, a complete and accurate list
is needed to draw the sample of vessels required to take an observer. The Shark Bottom
Longline (SBLL) Observer Program uses three logbook databases to select vessels.
These logbook databases, however, may contain vessels that do not have USCG safety
decals, are in the shipyard for repair, no longer fish for shark, have sunk, or have been
sold.

Prior to each season (the SBLL has two seasons per year, one from January to June and
the other from July to December), SBLL observer program officials access a database for
shark-permitted vessels and then cross- match those vessels with the Southeast FSC prior-
year shark landings data. Many vessels in this fishery also fish for other species, often on
the same trip. However, the objective of the SBLL program is to place observers aboard
vessels that target sharks and exclude vessels that have low or incidental catches of
sharks. To accomplish this, vessels for which sharks comprised less than 25 percent of
the landings in any given season are excluded. According to officials, the remaining
vessels are put into a pool and individual vessels are selected using a random number
generator. However, the shark landings data used to generate the list of vessels is at least
one year old because, according to NMFS officials, the data must be entered and checked
for quality control at the end of the fishing year.
9
    http://www.nmfs.noaa.gov/sfa/Popltr.htm


                                              14

U.S. Department of Commerce                                              Final Report IPE-15721

Office of Inspector General                                                        March 2004


Using landings data that is over one year old to identify currently active SBLL vessels
impedes the process for placing observers on vessels because of the time it takes to find
an active vessel and, if necessary, to rerun vessel lists. For example, the observer
provider informed us that for the January 2003 season, only 27 percent (11 out of 41) of
the vessels on the list were “deemed usable” (i.e., actively fishing for shark). In addition,
if a new vessel begins to fish for shark, it will be at least one year before it is included in
the population that the sample is drawn from. A faster, more efficient process is needed
to identify SBLL vessels.

Vessel selection protocol could encourage potential observer bias

The West Coast Groundfish observer program run by the Northwest FSC currently
selects vessels from a pool of permitted vessels so that coverage is spread evenly along
the West Coast. Observers are assigned to selected vessels for a 2-month period. To
allow enough time for the observer to board the vessel, captains are responsible for
notifying the observer 24 hours in advance of every fishing trip.

This is the only program where an observer is repeatedly assigned to the same vessel.
This raises a concern that repeated assignment to a vessel may interfere with the
observer’s objectivity, as they become friendly, over time with the captain and crew.
Northwest Fisheries Science Center officials agree that extended vessel assignments
could possibly result in the development of relationships that could potentially influence
the observer to alter data in favor of the vessel captain. However, the West Coast
groundfish vessel captains we interviewed on this issue said that while the potential
exists, observers on their vessels “toed the mark” and paid “meticulous attention to
detail.” In addition, several West Coast Groundfish observers also acknowledged the
potential for bias exists, but stated that they just focus on getting the job done. Since this
program is only in its second year of implementation, the unique vessel selection
methodology should be monitored to ensure that observers do not skew the data in favor
of the vessel during the 2- month assignment.

RECOMMENDATION
The Assistant Administrator for Fisheries should develop and implement statistically
valid, unbiased vessel selection procedures for observer programs with contractual
relationships with observer providers and continually monitor the implementation to
ensure that the vessel selection process is properly implemented.



NOAA concurred with the recommendation, although Shark Bottom Longline (SBLL)
officials disagreed that the outdated logbook databases impede observer placement. They
suggest that placement is affected by the fact that until 2002, the SBLL observer program
was voluntary and vessel owners were not required to carry an observer. SBLL managers
report that they are working with the U.S. Coast Guard to identify the vessels that lack
safety decals, and they have also reminded those vessels that lack of a safety decal does
not exempt them from carrying an observer.



                                              15

U.S. Department of Commerce                                                    Final Report IPE-15721

Office of Inspector General                                                              March 2004


In its response, NOAA reported that the agency has processes in place to ensure
statistical validity in many programs and is striving to improve them in all programs. In
addition to citing specific changes made by several of the observer programs, NOAA
mentioned progress made as a result of a July 2003 coverage workshop and an
anticipated 2005 coverage workshop that may include a discussion of vessel selection
methodologies.

While we are pleased with the changes many of the programs have made, we question
whether these individual program fixes, as well as the planned 2005 Coverage Levels
Workshop (which may or may not address vessel selection methodology), fully address
the recommendation. We suggest the action plan specifically address what processes are
in place to ensure the statistical validity of vessel selection methodologies and how
NOAA intends to periodically monitor implementation across all of the observer
programs.

B.	     A vessel selection process is needed to randomly place North Pacific
        Groundfish observers on the “30 percent” fleet

For the North Pacific Groundfish Observer Program, regulations state that observer
coverage is one-hundred percent for vessels over 125 feet and 30 percent for vessels 60 to
125 feet. There is no observer coverage for vessels less than 60 feet in length. 10
However, vessel owners, not NMFS, determine when to take on an observer for the 30
percent coverage fleet. The North Pacific Fishery Management Council, NMFS,
industry, and others have acknowledged problems with this program for years, however
little progress towards changing the current structure has been made.

We attended both the North Pacific Fishery Management Council’s Observer Advisory
Committee (OAC) and Advisory Panel meetings held in Seattle, Washington, on January
23-24, and January 29, 2003, respective ly. 11 The purpose of the OAC meeting was to
develop a problem statement to address specific data quality and disproportionate cost
issues related to the current observer program. The results of the OAC meeting were
reviewed and discussed by the panel and the North Pacific Fishery Management Council.

At the January/February 2003 meeting, the North Pacific Fishery Management Council
acknowledged that its observer program faces a number of longstanding problems that
result primarily from its current structure and proposed a restructuring of the program,
noting that:

        The quality and utility of observer data suffer because coverage levels and
        deployment patterns cannot be effectively tailored to respond to current
        and future management needs and circumstances of individual fisheries.

10
   Refer to 50 CFR §679.50(c) to review the regulations that govern this observer program.
11
   Observer Advisory Committee members include council members and others interested in observer
issues. Advisory Panel members represent major segments of the fishing industry—catching and
processing, subsistence and commercial fishermen, observers, consumers, environmental/conservation, and
sport fishermen—whose purpose is to advise the council on pertinent issues.


                                                  16

U.S. Department of Commerce                                               Final Report IPE-15721

Office of Inspector General                                                         March 2004


        In addition, the existing program does not allow fishery managers to
        control when and where observers are deployed. This results in potential
        sources of bias that could jeopardize the statistical reliability of catch and
        bycatch data. 12

The council also noted other problems:
   •	 Many smaller vessels face observer costs that are disproportionately high relative
      to their gross earnings.
   •	 Complicated and rigid coverage rules have led to problems with observer 

      availability and coverage compliance. 

   •	 The current funding mechanism and program structure do not allow enough
      flexibility to solve many of these problems or effectively respond to evolving and
      dynamic fisheries management objectives.

Both during and after the meetings we attended in Seattle, we were able to hear firsthand
and discuss the issues and concerns about the North Pacific groundfish observer program.
We concur that NMFS should do more to ensure that the data resulting from the program
is not compromised and is of the highest quality.

An independent review of the Alaska Fisheries Science Center, released in 2000, 13 found
that “the lack of direct contractual obligations between the government and the
companies, the direct industry payments, and the existence of multiple observer
companies competing for business from industry clients” have led to the problem of
vessel captains refusing to board certain observers and choosing when to fulfill coverage
requirements. The review proposed a direct contractual relationship between NMFS and
the observer companies.

RECOMMENDATION
The Assistant Administrator for Fisheries should work with the North Pacific Fishery
Management Council to establish requirements for an observer program that includes a
vessel selection process that produces random sampling of the fishery.



NOAA concurs with the recommendation that statistically valid, unbiased vessel
selection procedures are needed for scientific data collection. The response also noted,
and we agree, that some deployments, such as compliance monitoring and obtaining
management information on limited- license fisheries, may not require random vessel
selection procedures. According to their response, NOAA is currently working with the
North Pacific Fishery Management Council to address observer sampling issues. In
addition, NOAA reports that it has established protocols to minimize areas of potential
bias (e.g., haul selection, within haul sample selection, vessel design, and crew
interference) and has completed several analyses to improve methods in addressing bias.

12
  http://www.afsc.noaa.gov/Quarterly/jfm03/divrptsREFM1.htm#restructuring.

13
  “Independent Review of the North Pacific Groundfish Observer Program,” MRAG Americas, Inc., May 

2000, page 7. 



                                               17

U.S. Department of Commerce                                                 Final Report IPE-15721

Office of Inspector General                                                           March 2004


III.      A Qualified Observer Corps Enhances Program Efficiency and Data Quality

Observer programs worldwide have identified the need for maintaining a quality and
experienced observer corps for the purpose of collecting quality data. Although some
turnover is natural, too much turnover can result in a continuous stream of inexperienced
staff. Experience has shown that it takes time, and practice, to learn observer duties well
enough to exercise good judgment in collecting data as well as navigating the hazardous
working environment.

Two studies 14 conducted in 2000 identified turnover as a problem NMFS observer
programs face. Recent data obtained by the OIG from the observer programs confirms
that observer programs encounter significant turnover. The table below illustrates, for the
Northeast and Northwest groundfish observer programs, how quickly observers leave the
program, often within months of taking the training. It should be noted that some
observers left the Northwest program because their contract ended. The six training
classes in Table 1 were held during the period of February 2002 to February 2003.
Table 3: Training Class Turnover
                        Number of          Number of            Number of
Fishery Science                                                                       Percent
                       people trained     months since        observers that
Center                                                                               Turnover
                                             training        left the program
                             15            10 months                 -3                20 %
Northeast                    19             7 months                 -9                47 %
                             10             3 months                 -3                30 %
                              8            14 months                 -5                63 %
Northwest                    13            10 months                 -5                38 %
                             14             2 months                  0                 0%

In 1998, the Canadian Department of Fisheries and Oceans and NMFS co-sponsored a
workshop to bring together some of the key organizations responsible for the design,
management and delivery of at-sea fisheries observer programs in the United States and
Canada. The conference proceedings note that turnover results in more inexperienced
observers, thereby presenting greater safety risks and lower quality data. A second joint
workshop, held in 2000, devoted an entire session to observer turnover and retentio n
problems. The proceedings state that greater efforts to retain observers should be made
because of the:

�      Costs Associated With Turnover. “The impact of high turnover rates among
       observers is obvious: data quality and reliability suffer, safety liabilities increase,
       professionalism and good judgment require time to develop, relationships of respect
       and trust between industry and agency suffer, training costs for new observers
       increase.”

14
  Management Control Review of National Marine Fisheries Service Observer Programs/Service Delivery
Models, DOC/NOAA/NMFS, September 2000; Independent Review of the North Pacific Groundfish
Observer Program, MRAG Ame ricas, Inc., May 2000.


                                                18

U.S. Department of Commerce                                                      Final Report IPE-15721

Office of Inspector General                                                                March 2004


�     Reliability. “Observer programs provide valuable data vital to fisheries
      management. There must be sufficient confidence in the quantity and quality of the
      data.”

�     Quality Data. “Only well-prepared and motivated observers can supply reliable
      data. It takes time and money to prepare observers to collect good data. Over time
      observers can develop the experience and expertise.”

Data quality, costs, and other concerns associated with observer turnover

Data quality suffers when there is a steady flow of new observers. Of the more than 25
current and former observers we communicated with, most said that regardless of the
                                                         quality of the training they received,
Photo 2: Observer at Sea	                                it was not until a number of trips
                                                         were completed, that they fully
                                                         comprehended what they were
                                                         supposed to do. Specifically, the
                                                         skills required to do the job—
                                                         learning to work in often-extreme
                                                         weather conditions, learning
                                                         unfamiliar terminology, identifying
                                                         species, becoming familiar with the
                                                         assortment of vessel types and gear,
                                                         figuring out the forms, getting used
                                                         to the overwhelming smell
                                                         associated with fishing, overcoming
Source: North Pacific Fisheries Observer Training Center
                                                         seasickness, and coping with the
various types of skipper and crew harassment—are primarily learned on the job. Every
observer we asked, many who worked for multiple observer programs, confirmed that it
takes time, and multiple trips, to fully understand job responsibilities and requirements to
do the job efficiently and accurately.

In addition, NMFS is responsible for observer training, most of which is primarily
conducted in- house, using NMFS staff as trainers. Average training costs across all
programs is about $2000 per person trained, which may not reflect total NMFS costs, as a
number of non-observer program science center staff participate in the training (North
Pacific Observer Training Center cost estimates are not included). When turnover
occurs, more training has to take place, resulting in NMFS incurring additional training
costs, including staff time.

In addition to increased training costs and diminished data quality, inexperienced
observers may exacerbate safety concerns for vessel captains and crews. Fishing is
among the most dangerous jobs, with one of the highest annual rates of occupational
fatalities in the United States. 15 We found that in the North Pacific Groundfish observer
program, the majority of new observers have no prior experience on a sea-going vessel,
15
     Stoller, G. 2003. “Despite Law, Fishermen Face Deadliest Job Risks,” USA Today (March 12).


                                                    19

U.S. Department of Commerce                                                 Final Report IPE-15721

Office of Inspector General                                                           March 2004


much less familiarity with the waters of the Gulf of Alaska or the treacherous Bering Sea.
Captains we spoke with stated that when observers are aboard, the crew is responsible for
making sure the observers do nothing to endanger themselves or other crew members,
thus increasing the danger for the crew who must now be mindful of not only their own
safety but also that of the observers.

A.	     Reviewing recruitment practices is a step in the right direction

Hiring the right people plays a key role in retention. The ideal candidate for an observer
position, according to the Food and Agriculture Organization of the United Nations
(FAO), “possess[es] an appreciation of the fishing industry, as well as the requisite
intellectual capabilities and skills to collect, organize and present information pertinent to
the activities of fishing vessels,”16 that is, someone familiar with commercial fishing and
who has knowledge of the biological sciences or a related field.

NOP has a contract with the Association for Professional Observers to assess current
hiring practices and, with a view toward retaining experienced observers, identify better
recruitment methods. Therefore, we did not review in depth recruitment problems and
solutions.

However, observers, program officials, and industry workers offered several comments
regarding NMFS’s 4-year science degree requirement for observers. Many suggested
that while the requirement allows the program to hire people with the necessary skills,
those individuals will likely stay only on a short-term basis because post-secondary job
candidates are often only there to obtain some limited field experience before going back
to graduate school or moving on to other jobs. Several suggestions were made to reduce
the academic requirement to a 2-year degree and alter the training to compensate for the
knowledge gap between the 2- year degree versus the 4- year degree. Substituting
experience for the degree was also recommended; however, a number of programs that
tried hiring former commercial fishermen said that, with a few exceptions, it generally
did not work out well.

Although we have no specific recommendation, we wanted to note that NMFS is taking
action in this area by hiring the Association for Professional Observers to assess the
situation and to bring to NMFS’ attention the many comments we heard regarding the 4­
year secondary degree requirement.

B.	     Enhanced communication, training, and career opportunities may help retain
        observers

Observers work for companies that provide observer data to NMFS. The primary
responsibilities of the providers are to recruit and hire observers and arrange logistics fo r
trips. The FAO states that one of the disadvantages of contracting observers through a

16
   van Helvoort, G. 1986. Observer Program Operations Manual, FAO Fisheries Technical Papers - T2­
75. Rome: Food and Agriculture Organization of the United Nations. (Available at
http://www.fao.org/DOCREP/003/S8480E/S8480E00.HTM)


                                                20

U.S. Department of Commerce                                                   Final Report IPE-15721

Office of Inspector General                                                             March 2004


company, rather than employing them directly, is that “observers may resent not being
part of the organization they feel they work for.” 17

NMFS communication with observers

We found that most NMFS program managers and data users do not regularly
communicate with observers. One observer stated, “Speaking for myself, I would be
staying as an observer if my ideas, concerns, and insights were taken seriously by those
in charge. The attitude I feel from people at NMFS in Seattle has been that they look
down their noses at me… I think if observers felt more a part of the whole picture, they
would stay longer. The isolation in this program can be a major hazard.” Another
observer said, “I quit observing after about seven months. I believe I was one of the only
ones in [location deleted] so I had no contact with other observers. I rarely spoke to my
supervisor…” Most NMFS officials we spoke with agree more can be done, although
one person stated that no matter how much you communicate, more is always needed.

We found only one program of the seven we reviewed, the Southeast Pelagic Longline,
where observers felt they were supported by NMFS because they can call three program
officials at anytime and get a call back within hours. In addition, the observers are
debriefed by telephone, which may take 1 to 4 hours, after every trip, thus there is on­
going, continuous contact with NMFS. While 24-hour access to staff may not be realistic
for all programs, other opportunities exist for increasing communication with observers,
thereby decreasing the sense of isolation observers feel.

For example, more written communications between observers and program staff may
help. According to one observer we interviewed, unlike NMFS, the California
Department of Fish and Game observer program stresses communication and teamwork.
The state program provides a monthly newsletter to observers about port activities that
successfully promotes the mission and builds camaraderie among the observers. The
West Coast Groundfish observer program did initiate a newsletter, however it was
discontinued due to perceived lack of interest from the observers (whether it was lack of
interest, the content of the newsletter, or whether observers even received the newsletter
is not known). The University of Alaska’s North Pacific Observer Training Center issues
a quarterly newsletter that discusses data use and other items of interest to the observers
that could be duplicated by all programs. While such efforts may be helpful, newsletters
alone only inform and do not provide opportunities to respond.

Using the debriefing process to solicit information beyond what is required on the forms
may help foster better communication. Since observers are an important link between
NMFS, scientists, and fishermen, they are also in an ideal position to communicate
information to all stakeholders. However, as one program official stated, “you will get
the most open ho nest feedback if you can foster an environment of trust. It is critical to
communication.” Refresher training, discussed in more detail below, is another

17
  Davies, S.L. 2003. Guidelines for Developing an at-Sea Fishery Observer Programme, edited by J. Eric
Reynolds, FAO Fisheries Technical Paper – 414. Rome: Food and Agriculture Organization of the United
Nations.


                                                 21

U.S. Department of Commerce                                          Final Report IPE-15721

Office of Inspector General                                                    March 2004


mechanism to increase communication between observers, program officials, and data
users.

Training opportunities may keep more observers in the program

Most observers have four-year degrees in the biological sciences and strongly identify
with the NMFS mission. Learning and understanding how their data collection efforts fit
into protecting and sustaining living marine resources may help observers perform their
job better and potentially increase job satisfaction, thereby reducing turnover. NMFS
does not normally encourage or sponsor situations where observers can meet with the
data users. One observer reported to us that he was interested in meeting with biologists
to learn why certain biological information was necessary and what the differences were
between some of the species. Even though the observer attempted to schedule meetings
in advance, his efforts were rebuffed. Only the Alaska FSC regularly sponsors brown
bag seminars for observers, which are also available on- line.

University of Alaska training staff suggested, and we agree, that follow-up training
specifically about data usage would be beneficial. Refresher training provided by
program staff and data users would bring them together with observers. Such sessions
could be an invaluable source of information for observers, who can learn more about the
data—both the nuances of the collection and the usage—thereby improving their data
collection skills while better connecting observers to the programs. In addition, NMFS
staff would gain a better understanding of the observers’ experiences with industry,
possibly gaining insight into industry trends, as well as any data collection problems
observers may have experienced.

In addition, programs do not recognize prior training received in other NMFS observer
programs. Regardless of an observer’s past experience or the amount of prior training
received, each program requires observers to sit through all of its training sessions and
modules. NOP and the NOP Advisory Team have been working on standardized cross-
training materials, dealing primarily with safety training, which may begin to allow the
various observer programs to “waive” some elements of the training if the observer has
already received it in other NMFS programs. In addition, the Northeast and Southeast
observer programs are working toward establishing an east coast observer-training center
to consolidate training activities. Such consolidation and multi-program cross training
may increase the mobility of experienced observers, therefore positively impacting the
quality of the data collected, while decreasing training costs. The extent that cross
training can be utilized will obviously depend on program similarities.

Career opportunities at NMFS could improve retention

Many current and former observers we interviewed stated that the lack of advancement
opportunities made a long-term career as an observer unlikely. The independent review
of the North Pacific observer program asked former observers to list the top three of ten
possible reasons for leaving the program. More than one- half of the 58 respondents
checked “lack of advancement opportunities.”



                                            22

U.S. Department of Commerce                                                   Final Report IPE-15721

Office of Inspector General                                                             March 2004


Most observer programs, including the national program, only have one or two staff with
prior observing experience. This is a source of frustration for many observers who stated
that the programs and/or trainers either lacked actual observer experience or the
experience was so limited (or so long ago) that program staff were often unaware of the
difficulties and situations today’s observers encounter. Several experienced observers
said they found the training conducted by the Northeast and Northwest science centers
exasperating because the trainers were often unable to answer situational questions. One
observer was repeatedly told to “Do whatever you think best.” According to the FAO
operations manual, “[t]he best instructors are those who have an intimate knowledge of
observer work, have experienced conditions at sea, have a good understanding of the
fishery, and can communicate training messages in clear and straightforward terms.”18

The North Pacific Groundfish observer program has hired former observers and
incorporated their expertise into the training program. Many of the program and science
center staff, as well as the University of Alaska’s North Pacific observer training center
staff, are former observers. Many positions require a minimum of 60 days observing
experience.

Other programs should consider hiring observers for debriefing and data editing as well
as training positions. Hiring people who know and understand an observer’s job,
including its limitations, could potentially strengthen the program, and create observer
career opportunities within NMFS.

RECOMMENDATION
The Assistant Administrator for Fisheries should explore options to improve the retention
of qualified, experienced observers.


In its response to the draft report, NOAA concurred with the recommendation, stating
that many programs are making progress in providing retention incentives.

The response also noted that the Northwest FSC, like the Southeast FSC, provided
observers with 24-hour cellular and e-mail access to staff. However, the extent that
observers communicate directly with staff was not reported and none of the observers
interviewed by the OIG reported the 24- hour access.

NOAA stated that it intends to finalize and publish national minimum eligibility
standards for observers in fiscal year 2004. This will presumably be after the Association
of Professional Observers report is received in June 2004. According to the draft
statement of work for that study, the report will discuss whether the most
appropriate/qualified people are being hired to work as observers given a program’s goals
and objectives.

NOAA also commented in its response on our reference to suggestions made by some
observers and program and industry officials that the academic requirement for observer
18
     Davies, S.L. 2003. FAO Guidelines for Developing an at-Sea Fishery Observer Programme.


                                                   23

U.S. Department of Commerce                                           Final Report IPE-15721

Office of Inspector General                                                     March 2004


applicants could be reduced to a two-year degree. It noted that the North Pacific
Groundfish observer program has required a four-year degree since its inception and
claims that such a requireme nt ensures applicants have adequate biological backgrounds
and training in statistics and sampling. The program also maintains that this degree
requirement helps ensure that applicants are capable of applying sampling protocols in
complex and difficult environments and are mature individuals who can work effectively
in harsh environments.

NOAA strongly believes that a 4- year degree is extremely important, and in response to
our recommendation, states that the minimum eligibility standards will emphasize
recruiting candidates with a bachelor’s degree. NOAA also noted that if an insufficient
number of applicants meet the proposed education requirements, individuals with
alternative relevant experience or training may be hired. In addition, NOAA stated tha t it
may explore using exit interviews to obtain feedback from observers about their decision
to stop observing.




                                            24

U.S. Department of Commerce                                          Final Report IPE-15721

Office of Inspector General                                                    March 2004


IV.	   Improved Performance Measuring and Monitoring Ensures Accountability

Program priorities and performance measures are needed in order for headquarters to
adequately monitor observer program performance. In addition, there has to be some
accountability for meeting agreed upon performance levels.

The importance of establishing and reviewing performance measures and indicators are
clearly addressed in GAO’s Standards for Internal Control in the Federal Government.
According to the Standards, management should track major agency achievements and
compare them to the plans, goals, and objectives established under the Government
Performance and Results Act (GPRA). The scope and frequency of review generally
depend on the risks associated with the program, but reviews in general are valuable for
providing long-term program assessments and for validating and adjusting ongoing
monitoring efforts. While the performance measures we are describing here are not
intended to be official GPRA measures, they can be used for monitoring program
success, ensuring program accountability, and reporting observer program results to
NMFS stakeholders.

A.	    Better performance monitoring and more program manager accountability are
       needed

In addition to reviewing achievements and goals, it is important to establish a framework
of indicators and measures that clearly and consistently define the goals to be achieved.
The number of performance measures need not be extensive, but should allow the
National Observer Program Office to focus on the most important goals and measures to
be addressed.

Based on information gleaned from numerous interviews and received from observer
program managers, we found only one performance measure—sea days—routinely
tracked by regional observer programs. However, we also found that the measure is not
uniformly defined. We asked regional program managers in the Southeast, Northeast,
Northwest and Alaska regional observer program offices a series of performance-related
questions. The following chart summarizes their responses.




                                           25

U.S. Department of Commerce                                                          Final Report IPE-15721

Office of Inspector General                                                                    March 2004


Table 4: Fishery Science Center (FSC) observer program responses to performance -related
questions
      Southeast FSC             Northeast FSC                 Northwest FSC                Alaska FSC
How does your program measure a sea day?
Begins when the vessel      Any day at sea that an        A sea day is defined as     Any portion of a day in
departs the dock, the days  observer collects data        any day that the            which an observer is
while vessel is at sea, and OR a trip greater than 6      observer is on a vessel     on board a vessel is
the day the vessel returns  hours and aborted.            away from the dock. An      counted as a full sea
to a port concludes a sea                                 observed day is any day     day.
day.                                                      that an observer is on
                                                          board a vessel and a
                                                          fishing activity occurs.
How do you define “coverage?”
When an observer deploys      How many days            We examine percent       Based on definitions
with an assigned vessel       observed in a particular coverage by landing      contained in Federal
and the number of sets that fishery. Often by %.       weight, revenue,         Regulations (50 CFR
                                                                                                     19
a vessel completes . (note:                            number of landings,      679.50 and 679.2).
this refers to the number of                           and/or trips.
times fishing gear is
deployed.)
How do you measure or determine the success or failure of your observer program(s)?
Whether we meet our           Monitor days             When observers’ safety   Our performance
percent coverage              accomplished versus      and health risks are     relative to our stated
requirement each quarter,     days tasked; data        minimized and the data   goals and objectives.
whether we are providing      quality                  is utilized as a tool in
quality data to our users,                             fisheries management,
and whether observers are                              we consider the
performing well in the field.                          program to be a
                                                       success.

Although only sea days are routinely tracked, managers noted that measuring the
percentage of observer coverage achieved, data quality, and performance and safety of
observers determines the success or failure of the program. However, the use,
definitions, and indicators of these measures are not consistent across the programs. As
summarized in Table 4 above, only the North Pacific Groundfish Observer Program
(Alaska), made reference to measuring performance based on existing goals and
objectives, however the goals and objectives were unique to the program. In addition to
program specific goals, objectives, and performance measures, a limited number of
consistently defined measures could be created to enable headquarters to compile
“national” or cumulative observer program performance information.

Based on the statement-of-work training at the National Observer Program and Advisory
Team meeting and upon reviewing some initial performance-based contracts, the
following factors could be considered by the National Observer Program when
formulating nationally consistent performance goals:

     � Uniform definitions of coverage – Mandated or agreed-upon levels of coverage
       would be useful in determining the success or failure of an observer program.
       Coverage, however, is one of the most subjective indicators. Depending on the

19
  Regulations state that observer coverage is one-hundred percent for vessels over 125 feet and 30 percent
for vessels 60 to 125 feet. Thirty percent coverage must occur in three-month (quarterly) periods.



                                                    26

U.S. Department of Commerce                                          Final Report IPE-15721

Office of Inspector General                                                    March 2004


       program, coverage is measured in terms of total weight of the catch, total revenue
       gained from the catch, the number of landings in a given fishing trip, or number
       of trips.

   � Sea days – As noted above, this is a rather subjective measure. To be considered
     as an indicator, it needs to be consistently defined across all programs. However,
     sea days alone will not adequately reflect program success.

   � Data collection and quality – A measurement aimed at minimizing errors and bias
     and enhancing the collection of quality data should be established. For example,
     a performance standard being considered by the Southeast FSC, Mississippi
     Laboratories, defines acceptable quality level as “isolated deviations of 1 percent
     in data collection; 5 percent in sample identification.” Information obtained from
     implementing this performance standard could be reported as a performance
     measure.

   � Qualified corps of observers – Training, turnover, and retention should be
     measured to help ensure a qualified corps exists and is available for deployment
     as needed. A possible performance standard could include establishment of a
     threshold of acceptable turnover, as well as reports of delays in deployment due to
     the lack of trained observers.

The National Observer Program Advisory Team (NOPAT) working group has made
progress toward a substantial number of its objectives as established by NMFS.
However, no progress has been made toward developing either operational performance
measures or a monitoring framework. Establishing uniform measures as well as a
framework for collecting this information should receive NOP and NOPAT’s attention.

Lack of Reporting and Monitoring

Although the creation of NOP and NOPAT has improved communication between
NMFS headquarters and regional observer programs, the current organizational structure
does not provide a clear reporting/monitoring relationship, particularly since program
managers report directly to their respective Fisheries Science Center directors. Lack of a
formal reporting/monitoring relationship leaves NMFS headquarters unable to determine
whether programs are meeting their missions and achieving target goals.

For example, for fiscal years 2001 through 2003, spending plans were developed between
NMFS headquarters and the Southeast FSC justifying increased funding of $1 million for
the Atlantic Pelagic Longline Fishery Observer Program. This additional funding was to
increase observer coverage from 2 - 5 percent to 5 - 8 percent to meet the minimum
coverage requirements stipulated by the International Commission for the Conservation
of Atlantic Tunas (ICCAT). However, the Southeast FSC reported that the percent
coverage achieved for fiscal years 2001 and 2002 was 4 and 2.6 percent, respectively,
falling well below the 5 - 8 percent goal. We were told that the ICCAT requirements
were not met for those fiscal years because the additional funding for increasing Pelagic



                                            27

U.S. Department of Commerce                                           Final Report IPE-15721

Office of Inspector General                                                     March 2004


Longline observer coverage was actually used for the Atlantic Pelagic Longline turtle
experiment. Although NMFS officials stated that the funds were appropriately used, as
the turtle experiment was conducted in the Atlantic Pelagic Longline fishery,
headquarters officials were not aware that the ICCAT coverage level was not being met
until the third year of the spending plan agreement. This occurred because neither
observer program officials nor headquarters actively reports on or monitors program
progress.

NMFS should ensure that headquarters has a clear and distinct role in monitoring
observer program performance. Since the mission of the National Observer Program is to
address observer issues of national importance and develop policies and procedures to
ensure that NMFS observers and observer programs are fully supported and effective, it
appears that NOP is the logical headquarters office to collect information about the
various observer program achievements and performance.

In addition, as no formal relationship between the observer program managers and the
NOP exists, additional measures should be taken to ensure that program managers are
held accountable for implementing and achieving observer program objectives. While
there may be justification for altering specific program priorities, such changes should be
made with headquarters’ concurrence. Therefore, we suggest developing a system that
ensures observer program manager accountability. For example, NOP could provide
information to the employee’s rating official (e.g., Science Center Director) regarding a
program manager’s performance in meeting agreed upon national observer priorities.
Seeking input outside of the line of command on an individual’s performance is not
unique. The International Trade Administration’s Senior Commercial Officer
performance appraisal system requires input from sources inside and outside of the
Department of Commerce. NOP could similarly provide information to be incorporated
into annual performance plans and appraisals for observer program managers.

RECOMMENDATION
The Assistant Administrator for Fisheries should (1) establish national observer program
priorities and performance measures; (2) develop a mechanism to monitor and report
regional program performance to NMFS headquarters; and, (3) ensure that observer
program managers are held accountable for performance related to both national and
specific regional program priorities.



In its response to the draft report, NOAA stated that it concurs with the intent of the
recommendation and that the National Observer Program office and the regional
programs are in the process of developing a strategic planning process. The process will
include the establishment of program goals and objectives, in addition to national and
regional performance measures. A strategic planning process as described addresses our
concerns, however we ask that the action plan describe what methods will be used to
ensure that strategic plans are implemented and performance goals achieved.




                                            28

U.S. Department of Commerce                                                    Final Report IPE-15721

Office of Inspector General                                                              March 2004


B.	      Assessing observer provider performance can be accomplished through
         improved contracting practices

According to the Office of Federal Procurement Policy (OFPP), “performance-based
service contracting (PBSC) emphasizes that all aspects of an acquisition be structured
around the purpose of the work to be performed as opposed to the manner in which the
work is to be performed or broad, imprecise statements of work which preclude an
objective assessment of contractor performance.” 20 OFPP states the performance-based
service contracting has been used with a great deal of success by the Department of
Defense, however, the methodology has yet to be fully implemented throughout the
government. Reasons include inexperience in writing performance work statements and
increased initial investment when converting from a traditional statement of work to a
PBSC performance work statement. OFPP maintains, however, that up- front costs are
quickly offset through elimination of cost overruns, schedule delays, and failure to
achieve specified results. In addition, according to OFPP, a performance work statement
(PWS) should include the following:

      � a description of the work to be done in terms of measurable performance
        standards (outputs), including “what, when, where, how many, and how well”;
      � a quality assurance plan that directly corresponds to the program’s performance
        standards and measures the contractor’s compliance with performance-related
        goals; and
      � positive and negative outcomes in relation to quality assurance plan
        measurements.

The PWS standards, quality assurance plan, and appropriate financial incentives (and
disincentives) should be interdependent and compatible in form, style, and substance.
Without these elements, work statements and associated performance monitoring cannot
be effectively accomplished.

Only Southeast and Northeast FSC’s statements of work incorporate PWS standards

We reviewed statements of work and related contracts for observer services. The
majority are not performance-based and do not contain comparable measurable elements.
One exception was the Southeast Fisheries Science Center, Mississippi Laboratories,
which has drawn up a statement of work for both laboratory and observer services. The
statement of work includes performance standards, financial incentives for superior
performance, and disincentives for poor performance. The statement of work also
includes the following elements:

      � Goals statement: The overall goals of observer data collection are to provide data
        on which the government can make accurate assessments of each fishery; provide
        data on the discarded bycatch and release mortality aboard commercial and

20
  Office of Federal Procurement Policy. 1998. A Guide to Best Practices for Performance-Based Service
Contracting. (Available at http://www.arnet.gov/Library/OFPP/BestPractices/PPBSC/BestPPBSC.html)



                                                  29

U.S. Department of Commerce                                                Final Report IPE-15721

Office of Inspector General                                                          March 2004


     recreational fishing vessels; and implement necessary fishery management
     measures, based on that data, to sustain that fishery.
   � Objectives statements: The overall objectives of observer collection of fishery
     data are to obtain accurate, usable data; and ensure coverage of fisheries to meet
     mandated levels.
   � Protocol statement : The contractor shall follow the designated protocol for the
     specific project and attend all required training sessions.
   � Quality assurance statement/plan: The overall goal of quality control is to ensure
     the effectiveness and efficiency of collection efforts as well as the quality of data
     collected. For example, the data collection element of the quality assurance
     statement/plan is illustrated in Figure 3.
    Figure 3: Data Collection Element of the Quality Assurance Plan
       Performance Requirement: Observer data collection

       Performance Standard: All data accurate and usable; all samples correctly
       identified; 100% of mandated levels of coverage are met.

       Acceptable Quality Level (AQL): Isolated deviations of 1% in data collection;
       5% in sample identification.

       Monitoring Method: Feedback from Program Managers. Contracting Officer’s
       Technical Representative (COTR) maintains record of incidences where
       Contractor failed to provide observers when required.

       Incentives/Disincentives for Meeting/Not Meeting AQL: Repeated
       unsatisfactory feedback from the Program Managers could result in a reduction of
       payment for the effort up to the negotiated overhead percentage. Failure to meet
       mandated levels of coverage will result in that support being procured outside this
       contract, as well as a possible reduction in payment up to the cost of that outside
       support. Positive performance will be documented in past performance reports
       that are reported in the Past Performance Database.


    Source: Southeast Fisheries Science Center, Mississippi Laboratories


Although not as inclusive as the Southeast FSC examples above, we also found that the
Northeast FSC statement of work contained some performance-related elements:

   � Performance measure: Observer program officials choose a random sample of 10
     percent of each observer’s vessel trips to verify that the observer took the trip and
     evaluate observer performance. The contractor is required to conduct these
     follow-up telephone surveys.
   � Disincentive: Quarterly data quality reports are provided to the contractor. If the
     report results in a negative evaluation, the contractor has a specific period of time
     to improve performance. Three or more negative reports may result in
     termination or non-renewal of the contract.
   � Incentives (Bonus plans): Monetary incentives for both data quality and
     deployment exist. Accomplishing scheduled sea days and obtaining acceptable



                                                       30

U.S. Department of Commerce                                                Final Report IPE-15721

Office of Inspector General                                                          March 2004


        data quality ratings, based on specific criteria, result in additional funds for the
        contractor. In addition, providing coverage for special project sea days, without
        impacting regularly scheduled sea days, also results in a monetary bonus.

Contracting Officer’s Technical Representatives need additional training

The contracting officer’s technical representative (COTR) is delegated the authority to
monitor the technical effort being performed under the contract. The COTR is
responsible for being familiar with the requirements of the contract, and communicating
with the contractor as necessary to ensure the contractor is making satisfactory progress
in performance of the contract. Other than the contracting officer, the COTR is the only
Government employee who may direct the flow of technical matters between the
Government and the contractor. The OIG has identified problems with service
contracting in the past, including failure to use performance-based task orders where they
would be beneficial, inadequate training in the use of performance-based service
contracting, and insufficient planning for contract administration and monitoring. 21 It is,
therefore, essential that COTRs receive sufficient training in PWS preparation and
monitoring. During our interviews with COTRs from the FSCs under review, we were
told that training opportunities have not been consistently communicated. Based on a
review of COTR training documents we found that neither the initial training for new
COTRs nor refresher training for existing COTRs contains a module on performance
work statements.

Training can be accomplished through external sources or simply by modifying existing
internal training to include PBSC. To ensure that this function is performed adequately,
and unnecessary duplication of effort is avoided, training opportunities should also afford
staff the opportunity to share “best” practices.

RECOMMENDATION
The Assistant Administrator for Fisheries should develop model performance work
statements for observer provider service contracts. The Assistant Administrator for
Fisheries should also provide adequate training in the use and monitoring of
performance-based service contracting for observer provider COTRs.



NOAA concurred with the recommendation. The National Observer Program (NOP) has
begun to review and identify commona lties and gaps in regional contract statements of
work for the purpose of developing guidance and a model statement of work. In addition,
NOP will continue to organize national level training workshops for observer program
COTRs and encourage the inclusio n of performance-based elements in observer program
contracts, as appropriate.



21
  U.S. Department of Commerce Office of Inspector General, September 2003. Semiannual Report to
Congress. Washington, DC: Department of Commerce OIG.


                                                31

U.S. Department of Commerce                                               Final Report IPE-15721

Office of Inspector General                                                         March 2004


C.	         An observer provider monitoring and reporting process is needed in the
            North Pacific Groundfish program

The recommendations discussed in the previous sections of this chapter apply to all
observer programs except the North Pacific Groundfish program. Unlike the other
observer programs, in the North Pacific Grounfish program industry pays for the
observers directly, thus there is no contractual relationship between NMFS and the
observer providers. In addition, the North Pacific fishery management council develops
the rules governing the observer program through a time-consuming regulatory process.
As a result, monitoring observer provider performance must be accomplished within the
framework of the council-derived regulations. Unless the North Pacific Groundfish
observer program moves from the current service delivery model, as described above, to
a model whereby NMFS contracts directly with observer providers for observer services,
traditional contractor performance monitoring and reporting systems cannot be
implemented for this program.

Some limited contractor performance measures are currently are in place

We found that recent changes to the regulations for the North Pacific Groundfish
Observer Program provide an opportunity for limited performance measurement of
observer providers. 22 These changes are summarized as follows:

Observer-provider permitting process – Moving from a certification to a permitting
process establishes an application procedure for observer providers and creates a
mechanism for an official, or board of officials, appointed by the NMFS Alaska Regional
Office Administrator, to review permit applications, determine who meets the criteria,
and issue observer provider permits. Specific criteria are established to evaluate an
observer provider application:

      (1)   Absence of conflict of interest
      (2)   Absence of criminal convictions
      (3)   Performance ratings on a Federal contract.
      (4)   Absence of any history of decertification as either an observer or observer 

            provider.


Sanctions – Recent changes in the sanctions process allows for changing undesirable
behaviors (see responsibilities below), without revoking the permit. This change from
observer provider permit revocation or suspension to an administrative process, allows
for the issuance of a fine when specified standards are violated. The prior process of
revoking or suspending observer provider certification was difficult to implement and
had serious repercussions for the observer provider because it would, in effect, shut down
the business.

Responsibilities – Six new observer provider responsibilities have been established to
better address performance issues of particular concern:
22
     50 CFR Part 679, December 6, 2002


                                                 32

U.S. Department of Commerce                                         Final Report IPE-15721

Office of Inspector General                                                   March 2004


   (1) A new observer drug and alcohol policy provided by NMFS to observer providers
       should be included in written contracts or contract addendums between observer
       providers and observers;
   (2) Observer providers should verify valid U.S. Coast Guard vessel safety decals
       before placing an observer aboard;
   (3) Limitations placed upon reassignment of observers to vessels and/or processors
       should be followed;
   (4) Observer duties should be completed prior to an observer’s assignment being
       changed;
   (5) Observer providers should provide observer candidates with a NMFS-produced
       pamphlet describing the duties of an observer; and
   (6) Observer providers should have a signed written contract or contract addendum
       with each observer prior to each deployment.

The implementation of these regulatory changes and the establishment of performance
measurements, although limited, allow for some oversight of the observer providers by
NMFS. In addition, the new regulatory changes strengthen NMFS ability to correct
observer provider behavior that is considered detrimental to the program. The former
regulations only allowed for permit revocation, a process that was never implemented, in
part for fear of putting a company out of business. However, the regulation does not
specifically establish a monitoring or reporting process.

RECOMMENDATION
The Assistant Administrator for Fisheries should establish a monitoring and reporting
process to help ensure that North Pacific Groundfish observer providers are in
compliance with the new certification requirements and meet the standards defined in the
North Pacific Groundfish Observer Program regulations



NOAA concurs with this recommendation and reports that the North Pacific Groundfish
observer program is actively working with the Alaska Regional Council to improve the
monitoring and reporting process and ensure consistency with the current regulations.




                                           33

U.S. Department of Commerce                                                     Final Report IPE-15721

Office of Inspector General                                                               March 2004


V.      Increasing Outreach Efforts May Enhance Industry Cooperation

The Marine Fisheries Advisory Committee (MAFAC) was established to inform the
Secretary of Commerce about departmental activities in relation to living marine
resources. 23 The committee identified insufficient external and internal communication
and outreach as the basis for many of the problems and criticisms NMFS faces, with
implications beyond observer programs. Our focus, however, is on what can be
accomplished through outreach efforts by the National Observer Program office and the
regional programs.

Through discussions with observers, observer program and science center staff, and
fishermen, we learned of, and have presented here, several outreach strategies—some
already proven to be effective—that NMFS could employ. We suggest that NMFS use
these as guidelines and to germinate additional ideas for informing, educating, and
making its various constituencies aware of its mission.

A.      An observer program outreach strategy is needed

During our review, we learned that vessel captains and their crews often do not cooperate
with observers. Observers told us about verbal, and even physical, harassment; sampling
interference, such as presorting species prior to giving the observers access to the catch;
being assigned unpleasant-to-appalling sleeping, eating, or working conditions; and other
seemingly minor, yet intimidating, behavior such as giving the observer the “s ilent
treatment”—that is, not speaking to him or her for days at a time. We believe this lack of
cooperation stems partially from NMFS’ lack of effective communication, education, and
outreach to vessel permit holders and captains.

NOP needs to develop guidelines to better coordinate outreach efforts

When NMFS established the National Observer Program in 1999, Regional
Liaison/Communication was identified as one of NOP’s missions, stating that:

             NMFS leadership, Congress, our constituents, and the public need
             to be aware of why NMFS places observers onboard fishing
             vessels, what observers accomplish, how observer programs
             operate, how priorities for observer coverage are determined, how
             much observer programs cost, and why industry should bear the
             cost of placing observers…Work in this area could include
             collating and distributing summary information on observer
             programs, fostering communication…and preparing appropriate
             outreach and Congressional materials. 24



23
   For more information and publications of the Marine Fisheries Advisory Committee, go to 

http://www.nmfs.noaa.gov/mafac.htm. 

24
   Memorandum from William W. Fox, Jr, to Andrew A. Rosenberg, April 29, 1999.



                                                   34

U.S. Department of Commerce                                                  Final Report IPE-15721

Office of Inspector General                                                            March 2004


Implicit in that mission is NOP’s responsibility to educate and inform its stakeholders
about its purpose, goals, policies, and role in the industrial and socioeconomic
communities it serves. NOP has conducted some outreach activities, such as sponsoring
the International Fisheries Observer Conference and hosting a booth at the Fish Expo
each year; and two programs, the Alaska Marine Mammal observer program and the
West Coast Groundfish program, have held local face-to-face meetings with fishermen.
In addition, although still in draft, NE observer staff have prepared an informational
brochure that explains the program. While these are good efforts, NOP has no national or
regional outreach strategy or commitment to ensure these initiatives are continual or
consistent.

An overall plan is critical to developing outreach efforts that effectively communicate an
organization’s policies and goals. Like NMFS, the Department of the Interior’s National
Fish and Wildlife Service has had to contend with a critical public. To help address this,
the Service developed an Outreach Handbook to help guide its managers in creating and
implementing a consistent and cohesive outreach strategy. The handbook includes
policies and guidance on preparing a plan, specific direction on how to establish goals
and develop activities for achieving those goals, and stresses designing a unified message
and using a unified approach for delivering that message. It notes the following:

            To be trusted by a skeptical public, an organization must not only
            perform well, but also be publicly appreciated for its good
            performance. Our science and judgment in managing natural
            resources are sound, and creditworthy. However, too many Americans
            do not even know who we are or what we do. As a result, we are often
            mistrusted, wrongly criticized, and many of those who would share our
            values work against us instead of with us. Effective outreach can help
            us gain the trust and assistance of our various publics, while providing
            us a mechanism to listen, and where appropriate, accommodate
            reasonable concerns. 25

Regional observer programs could benefit from similar guidance from the national office;
and NMFS could improve its credibility through concerted efforts to educate and inform
as well as listen to its public.

Industry needs uncomplicated, straightforward materials describing the program

We believe that an important reason for the lack of industry cooperation is that fishermen
are offered only limited information about the program, thereby not completely
understanding what the observer’s purpose is or why it must be accomplished from their
vessels. According to a West Coast observer, the only tangible information the captain
receives is the notification-of-boarding letter, written in “legalese” and therefore hard to
understand. Observers told us that clearly written materials about the program, that
explain what the observer will be doing, why, and what is expected of the captain (for

25
   U.S. Fish and Wildlife. 2001. A Handbook for Outreach. Washington, DC: U.S. Department of the
Interior, U.S. Fish and Wildlife Service.


                                                 35

U.S. Department of Commerce                                          Final Report IPE-15721

Office of Inspector General                                                    March 2004


example, safety inspection requirements) as well as relevant contact information (for
example, who to contact for U.S. Coast Guard safety inspection information, and
observer program telephone numbers) would enhance cooperation.

In several fisheries language barriers prevent captains and crews from fully
understanding, and therefore cooperating with, observers and the observer program. For
example, the NE region is home to a large population of Portuguese-speaking fishermen.
West Coast Groundfish observers work with Italian-speaking crews, and both that fishery
and the Gulf Pelagic longline fishery also frequently work with Vietnamese-speaking
crews. Observers stated that obstacles created by an inability to communicate easily with
the non-English speaking crews makes it difficult to perform fairly simple tasks. To
address language issues in the NE, the program director hired an assistant fluent in
Portuguese who prepared information cards in both Portuguese and English for observers
to use.

Industry cooperation is essential to ensuring observers are able to fulfill their duties.
Without cooperation, coverage goals and data collection efforts may be impaired,
negatively impacting data quality. We suggest that in addition to preparing easy to
understand materials in English, programs with large, foreign language-speaking fishing
populations should, whenever possible, adopt a solution similar to the NE program and
prepare translated materials in the relevant languages. Finally, to avoid duplication of
efforts, NOP should establish a central warehouse for all outreach materials, so programs
can learn from and share in each other’s communication efforts.

RECOMMENDATION
The Assistant Administrator for Fisheries should develop an outreach strategy that
includes—
    •	 guidance that regional program managers can use to establish and reach their
       outreach goals;
    •	 suggestions for creating and distributing easy-to-read information about the
       program (in both English and foreign languages, where needed); and
    •	 a central resource library for outreach materials so that regional programs can
       share ideas and materials and avoid duplication of efforts.



NOAA concurs with this recommendation and reports that the National Observer
Program (NOP) is already taking, or intends to take, actions that will satisfy this
recommendation. Specifically, the NOP has been collecting NOAA and non-NOAA
outreach materials and proposes to make them available electronically, to the extent
feasible, to regional programs. More importantly, the NOP intends to hire a contractor to
develop an observer program outreach strategy and design professional, high quality
electronic and written materials to be used at a national level to increase outreach. The
solicitation to hire a contractor will also include developing regional guidance and
materials to ensure an agency wide consistent and professional observer program
outreach effort.


                                            36

U.S. Department of Commerce                                            Final Report IPE-15721

Office of Inspector General                                                      March 2004


B.     Improving industry relations needs to be a priority

Observers, industry representatives, and program and other science center staff have
noted NMFS’ need to improve its relations with the fishing industry because, as one
NMFS official plainly stated, “NMFS communication with the industry is abysmal.”
Industry’s perception, in turn, is that NMFS is unaware of the realities of working at sea.
Some observers likewise reported that program staff persons occasionally make requests
of observers that clearly indicated a lack of awareness of fishing activity and fleet
operations.

Even though the overwhelming consensus was for more NMFS/industry face-to-face
interaction, program and science center staff could not agree whose responsibility it was
to undertake this resource- intensive activity. Observers suggested, however, and we
agree, that for both program officials and science center staff, increased interaction with
the industry would provide a better understanding of all that is involved with collecting
the data they analyze as well as an opportunity to explain to fishermen how the data is
used and, possibly, discuss the positive impacts of the data analysis.

Convening regional fishing community fo rums could foster better relations

Many of the people with whom we spoke believe that Fishery Management Council
meetings are not the best venue to communicate stock assessments and observer program
information to fishermen. According to a NMFS official, council meetings have an
agenda, which is not conducive to time-consuming open discussions and explanations;
furthermore, council members are present as paid representatives, whereas many
fishermen said they do not attend meetings because it takes time away from earning their
livelihood and because of travel expenses. Fishermen told us that small informational
meetings between themselves and an NMFS staff member, without the formalities of the
Management Council process, would better allow a free exchange of information.

In addition, observers and industry representatives suggested holding meetings near
docks or attending local fishermen association meetings as a way to build trust and
enhance cooperation. MAFAC, too, in its December 2000 report, recommended that, to
help develop mutual trust, NMFS should visit fishermen at the docks. For example,
when the Alaska marine mammal observer program was expanded to the Kodiak region
in 2001, program staff held meetings with its primary constituents in five locations over a
six-month period to explain the program and answer questions—an effort that was
deemed successful. The West Coast groundfish observer program staff conducted a
similar outreach effort prior to program implementation and found it extremely
beneficial. In fact, they are contemplating holding more meetings to address any industry
concerns that have developed since implementation.

Although none were held, the National Observer Program’s FY 2001 draft operations
plan lists holding regional forums as an item to accomplish. We encourage NOP and
regional programs to participate in or hold industry forums. For example, the NOP
Advisory Team could conduct its meetings in localities with large fishing fleets, thereby



                                             37

U.S. Department of Commerce                                                Final Report IPE-15721

Office of Inspector General                                                          March 2004


providing opportunities for team members to visit the docks and interact with local
fishermen and observers.

Participating in the fishery facilitates relationship building and trust

As noted, a number of observers and industry representatives expressed concern that
NMFS does not seem to have a comprehensive grasp of current concerns and issues
within the fishing community. Occasionally deploying science center and observer
program staff on commercial fishing trips could help restore NMFS’ standing with
industry and observe rs.

The North Pacific Groundfish observer program has already begun integrating staff and
observer duties. In 2001, in an effort to better facilitate program, observer, and industry
interactions, the North Pacific Groundfish observer program hired employees as part of
their “observer cadre” initiative. Staff in the cadre are responsible for serving as program
liaisons, supporting both observers and industry in the field and assisting in mediating
issues by, for example, deploying on a vessel to address sampling problems or protocols.
Hiring experienced staff to interact on a regular basis with the fishing industry and
observers is expected to allow for better understanding, communication and trust building
among all stakeholders; through the cadre, NPGOP staff and trainers have already
indicated an increased awareness of industry and observer needs.

For programs that do not have the resources to hire additional personnel, current science
center and program staff could occasionally be deployed on a commercial vessel as an
observer or with an observer to gain on-board experience and share face-to-face
communication with industry and observers. Programs could consider implementing
such an outreach initiative even more expansively, assigning staff responsibilities similar
to those of the cadre, with a mix of assignments that include service as an observer.

Utilizing Sea Grant resources could ease the outreach burden

There has been considerable congressional support for NOAA’s Office of Oceanic and
Atmospheric Research’s National Sea Grant College Program to work with NMFS on
outreach. The 30 state college Sea Grant programs all have extension service programs
with a mission “to provide for effective two-way communication between the users and
the producers of knowledge, with the goal of solving the practical problems of the users.”
During the FY 2002 National Sea Grant College Program reauthorization, $3 million was
designated for fishery extension activities. By reprogramming some FY 2002 funds,
limited fisheries outreach was conducted—NMFS conducted a workshop on marine
protected areas and bycatch in partnership with the Connecticut, Maine, Rhode Island,
and New Hampshire Sea Grant colleges and produced a shark brochure in cooperation
with the Florida, North Carolina, and Rhode Island Sea Grant programs. We believe Sea
Grant’s mission, along with the Congressional reauthorization, provide ample
justification to explore opportunities for observer program/Sea Grant outreach
collaboration.




                                              38

U.S. Department of Commerce                                            Final Report IPE-15721

Office of Inspector General                                                      March 2004


RECOMMENDATION
The Assistant Administrator for Fisheries should ensure that the NMFS National
Observer Program office and the regional programs increase program outreach efforts to
the fishing industry, such as holding regional forums, deploying staff, or utilizing the
National Sea Grant Program extension program or other organizations, to educate the
industry and improve industry cooperation with the observer programs



NOAA agreed with the recommendation, citing examples where some collaboration has
already occurred between the Northeast and Southeast Fishery Science Centers and Sea
Grant programs. NOAA states that it will continue to explore collaborating with Sea
Grant programs and other organizations for assistance with information workshops and
creating educational materials. Finally, the response confirmed that the Northwest
Fishery Science Center (West Coast Groundfish observer program) staff completed
another series of meetings in fishing ports that were held to answer questions and receive
comments from fishermen and other stakeholders.

C.	      Offering incentives could foster better industry relations and improve
         cooperation

Most fishermen view taking an observer on board as a burden, regardless of whether the
observer is paid by industry or through federal funds. Vessels carrying an observer are
required to provide meals as well as accommodations. In fact, because of space
limitations on smaller vessels, taking on an observer may require leaving a crewmember
ashore, making the trip particularly onerous.

To offset expenses and inconveniences, some incentives have been provided for carrying
an observer. For example, the NE closed area scallop dredge observer program is
resource funded, whereby industry funds observer costs through increased possession
limits. Scallop dredgers carrying an observer are allowed to land more pounds of
scallops for that trip. Another inducement some programs offer is a reimbursement to
captains for observer meals.

Although it is important that any incentive be “resource neutral” (that is, not impact
overall management goals and targets), several could be considered when an observer is
deployed on a vessel:

      •	 As already mentioned, increasing a vessel’s possession limit (e.g., more pounds)
         is one incentive.
      •	 With respect to possession limits, a vessel’s last haul often creates an excess,
         necessitating that that excess be discarded. Allowing an exception to the trip limit
         with regard to the last haul could be considered resource neutral, inasmuch as the
         excess is already on board.
      •	 The Days-at-Sea (DAS) fishery management measure, used only by the New
         England council, limits fishing effort. For every day fished, a vessel uses one of


                                              39

U.S. Department of Commerce                                            Final Report IPE-15721

Office of Inspector General                                                      March 2004


      its allocated DAS. Reserving a pool of “observer” DAS from the total that is used
      when an observer is on-board, would avoid using a vessel-allocated DAS.
   •	 Although perhaps not as resource neutral as the others, allowing limited access to
      closed areas when an observer is aboard is another potential incentive.
   •	 Reimbursement for meals across all programs may help decrease the burden,
      although funding limitations may not allow this for some.

In addition to resource neutrality, ease of implementing an incentive, and the extent that it
impacts the enforceability of the management measure, must be weighed. However, the
benefits of industry willingly participating in the observer program could be considerable
for NMFS, the observer program, and the observers.

RECOMMENDATION
The Assistant Administrator for Fisheries should explore offering resource neutral (to the
extent possible) incentives to increase industry cooperation with the observer programs.



NOAA concurred with the recommendation, but noted in its response that most industry
incentives are not resource neutral.




                                             40

U.S. Department of Commerce                                            Final Report IPE-15721

Office of Inspector General                                                      March 2004




                                RECOMMENDATIONS


This review examined seven of the 14 programs that were in existence during fiscal year
2003. Recommendations one through eight are applicable across most observer programs
while recommendations nine and 10 are specific to the industry- funded North Pacific
Groundfish observer program.

We recommend that the Assistant Administrator for Fisheries take appropriate steps to:

1.	 Develop and implement statistically valid, unbiased vessel selection procedures for
    observer programs with contractual relationships with observer providers and
    continually monitor the implementation to ensure that the vessel selection process is
    properly implemented. (see page 12).

2.	 Explore options to improve the retention of qualified, experienced observers (see
    page 18).

3.	 Establish national observer program priorities and performance measures, develop a
    mechanism to monitor and report regional program performance to NMFS
    headquarters, and ensure that observer program managers are held accountable for
    performance related to both national and specific regional program priorities (see
    page 25).

4.	 Develop model performance work statements for observer provider service contracts
    (see page 29).

5.	 Provide adequate training in the use and monitoring of performance-based service
    contracting for observer provider COTRs (see page 31).

6.	 Develop an outreach strategy that includes (a) guidance that regional program
    managers can use to establish and reach their outreach goals; (b) suggestions for
    creating and distributing easy-to-read information (in both English and foreign
    languages, where needed); and, (c) a central resource library for outreach materials so
    that regional programs can share ideas and materials and avoid duplication of efforts
    (see page 35).

7.	 Increase program outreach efforts to the fishing industry, such as holding regional
    forums, deploying staff, or utilizing the National Sea Grant Program extension
    program or other organizations, to educate the industry and improve industry
    cooperation with the observer programs (see page 37).

8.	 Explore offering resource neutral (to the extent possible) incentives to increase
    industry cooperation with the observer programs (see page 39).




                                             41

U.S. Department of Commerce                                          Final Report IPE-15721

Office of Inspector General                                                    March 2004


For the North Pacific Groundfish Observer Program, we recommend that the Assistant
Administrator for Fisheries take appropriate steps to:

9.	 Work with the North Pacific Fishery Management Council to establish requirements
    for an observer program that includes a vessel selection process that produces random
    sampling of the fishery (see page 16).

10. Establish a monitoring and reporting process to help ensure that North Pacific
    Groundfish observer providers are in compliance with the new certification
    requirements and meet the standards defined in the North Pacific Groundfish
    Observer Program regulations (see page 32).




                                            42

U.S. Department of Commerce                                                      Final Report IPE-15721

Office of Inspector General                                                                March 2004




                                           APPENDIXES
                                                                                        APPENDIX A

                    Evaluation of Observer Program Operations Manuals 26

KEY
X Missing from manual                Northeast                      Southeast                          West
                                                    Southeast                        North
F      Inadequate coverage in        Observer                         Shark                            Coast
                                                     Pelagic                         Pacific
        manual                       Programs                        Bottom                           Ground
                                             27     Longline                       Groundfish
                                     Manuals                        Longline                            fish
i      Clearly explained in manual
Outline
 Table of Contents                       i               i              X                i                  i
Detail
     Background
                  28                     F               F              F                i                  i
     Health & Safety Info.               F               i              i                i                  i
     Contact Information                 i               i              i                i                  i
     Duties & Priorities                 F               F              F                i                  F
     Training                            X               X              X                i                  i
     Briefing                            X               X              X                i                  i
     Deployment
                  29                     F               F              F                i                  i
     First days on board                 X               X              X                i                  i
     Data Collection
                       30
                                         i               F              F                i                  i
                                        Not
     Debriefing                      Applicable          i              i                i                  i
     Submitting Data                     X               X              X                i                  i
 Ethics
           31                            F               X              X                i                  i
 Observers role in regulatory
 compliance
                                         X               X              X                i                  i
Supporting Documentation
Sample forms                             i               i              i                i                  i
 Photos/Diagrams                         i               i              i                i                  i
 Maps                                    i               X              X                i                  X
Miscellaneous Reference Tools
     Appendices                          i               X              X                i                  i
     Glossary                            X               X              X                i                  i
  Index                                  X               X              X                i                  X
Source: OIG Analysis



26
   Adapted from the “Gatekeeper CA/RA Operations Manual, Evaluation Criteria, Version 1.1,” June 2002,
   and “How to Write a Training Manual,” John Davis, 1992; and observer manuals.
27
   The Northeast FSC uses two manuals (training and operations) for all three observer programs (Atlantic
   Scallop Dredge, New England & Mid Atlantic Gillnet, and New England Groundfish).
28
   Includes past and present history of the fishery, management plans, and other management agencies.
29
   Includes instructions on sampling gear, personal equipment, assignments and communications.
30
   Includes completing and organizing forms and logbook entries.
31
   Includes observer standards of behavior, conflict of interest, and confidentiality information.


                                                   43

U.S. Department of Commerce                                        Final Report IPE-15721

Office of Inspector General                                                  March 2004





                                                                           APPENDIX B
                                   List Of Acronyms



COTR           Contracting Officer Technical Representative
FAO            Food and Agriculture Organization (of the United Nations)
FSC            Fishery Science Center
GPS            Global Positioning System
MAFAC          Marine Fisheries Advisory Committee
NMFS           National Marine Fisheries Service
NOAA           National Oceanic and Atmospheric Administration
NOP            National Observer Program
NOPAT          National Observer Program Advisory Team
NPGOP          North Pacific Groundfish Observer Program
OCS            Observer Communications System
OLE            NMFS Office of Law Enforcement
PBSC           Performance-Based Service Contracting
PWS            Performance Work Statement
SBLL           Shark Bottom Longline
SOW            Statement of Work




                                           44

